<html>
<title> - H.R. 3401, H.R. 3954, and H.R. 3962</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                  H.R. 3401, H.R. 3954, and H.R. 3962
=======================================================================

                          LEGISLATIVE HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             April 10, 2002

                               __________

                           Serial No. 107-101

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov







                           U.S. GOVERNMENT PRINTING OFFICE
78-631                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
John E. Peterson, Pennsylvania,      Tom Udall, New Mexico
  Vice Chairman                      Mark Udall, Colorado
Mark E. Souder, Indiana              Rush D. Holt, New Jersey
Michael K. Simpson, Idaho            Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho




                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 10, 2002...................................     1

Statement of Members:
    Acevedo-Vila, Hon. Anibal, a Delegate in Congress from Puerto 
      Rico.......................................................    59
        Prepared statement on H.R. 3954..........................    60
    McInnis, Hon. Scott, a Representative in Congress from the 
      State of Colorado..........................................     2
    Peterson, Hon. John, a Representative in Congress from the 
      State of Pennsylvania......................................    34
        Prepared statement on H.R. 3962..........................    36
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     2
        Prepared statement on H.R. 3401..........................     4

Statement of Witnesses:
    Bradley, Terry, Ed.D., Deputy Superintendent for 
      Administrative Services, Clovis Unified School District, 
      Clovis, California.........................................     8
        Prepared statement on H.R. 3401..........................    10
    Estill, Elizabeth, Deputy Chief, Programs and Legislation, 
      Forest Service, U.S. Department of Agriculture.............     5
        Prepared statement on H.R. 3401, H.R. 3962 and H.R. 3954.     7
    McCurry, Craig, Elmore County Commissioner...................    38
        Prepared statement on H.R. 3962..........................    40
    McDonald, Kristen, Associate Director, Wild and Scenic Rivers 
      Program for American Rivers................................    62
        Prepared statement on H.R. 3954..........................    63

Additional materials supplied:
    Alberswerth, David, Director, Bureau of Land Management 
      Program, The Wilderness Society, Letter submitted for the 
      record on H.R. 3962........................................    50
    Cope, Dr. R.E., Commissioner, District 1, Lemhi County, 
      Idaho, Letter submitted for the record on H.R. 3962........    56
    Watson, Rebecca, Assistant Secretary for Land and Minerals 
      Management, U.S. Department of the Interior, Letter 
      submitted for the record on H.R. 3962......................    66
    Western Land Group, Inc., Denver, Colorado, Statement 
      submitted for the record on H.R. 3962......................    52


  LEGISLATIVE HEARING ON H.R. 3401, TO PROVIDE FOR THE CONVEYANCE OF 
 FOREST SERVICE FACILITIES AND LANDS COMPRISING THE FIVE MILE REGIONAL 
LEARNING CENTER IN THE STATE OF CALIFORNIA TO THE CLOVIS UNIFIED SCHOOL 
DISTRICT, TO AUTHORIZE A NEW SPECIAL USE PERMIT REGARDING THE CONTINUED 
USE OF UNCONVEYED LANDS COMPRISING THE CENTER, AND FOR OTHER PURPOSES; 
H.R. 3962, TO LIMIT THE AUTHORITY OF THE FEDERAL GOVERNMENT TO ACQUIRE 
 LAND FOR CERTAIN FEDERAL AGENCIES IN COUNTIES IN WHICH 50 PERCENT OR 
MORE OF THE TOTAL ACREAGE IS OWNED BY THE FEDERAL GOVERNMENT AND UNDER 
  THE ADMINISTRATIVE JURISDICTION OF SUCH AGENCIES; AND H.R. 3954, TO 
  DESIGNATE CERTAIN WATERWAYS IN THE CARIBBEAN NATIONAL FOREST IN THE 
  COMMONWEALTH OF PUERTO RICO AS COMPONENTS OF THE NATIONAL WILD AND 
             SCENIC RIVERS SYSTEM, AND FOR OTHER PURPOSES.

                              ----------                              


                       Wednesday, April 10, 2002

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 1334, Longworth House Office Building, Hon. Scott McInnis, 
[Chairman of the Subcommittee] presiding.

 STATEMENT OF HON. SCOTT McINNIS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. McInnis. The Committee will come to order. I ask 
unanimous consent that Representative Radanovich have 
permission to sit on the dais and participate in the hearing. 
Congressman, you are welcome to join us.
    The purpose of today's hearing is to hear testimony on 
three bills: H.R. 3401, by the Chairman of the Subcommittee on 
National Parks, Recreation, and Public Lands, Mr. Radanovich, 
to provide for conveyance of Forest Service facilities and 
lands comprising the Five Mile Regional Learning Center in the 
State of California to the Clovis Unified School District, and 
to authorize a new special use permit for the continued use of 
unconveyed lands used by the Center; H.R. 3962, introduced by 
the Vice Chairman of this Subcommittee, Mr. Peterson, to limit 
the authority of the Federal Government to acquire land in 
counties in which 50 percent or more of the total acreage is 
owned by the Federal Government; and finally, H.R. 3954, 
offered by my colleague from Puerto Rico, to designate certain 
waterways in the Caribbean National Forest in the Commonwealth 
of Puerto Rico as components of the National Wild and Scenic 
Rivers System.
    I look forward to hearing from our witnesses. There are no 
opening remarks. They can be incorporated in the record, 
obviously.
    Mr. McInnis. OK. Let's go ahead and we will proceed with 
the witnesses on the first panel, for H.R. 3401. I have already 
introduced the Congressman. We have Elizabeth Estill, Deputy 
Chief, Programs and Legislation, U.S. Forest Service; and Dr. 
Terry Bradley, the Deputy Superintendent for Administrative 
Services, Clovis Unified School District.
    I am going to remind the witnesses that, under our 
Committee rules, we have a 5-minute rule. You will see the 
light there. To our witnesses, thank you very much for 
attending the Committee hearing today. Obviously, your comments 
will go onto the record. Don't be discouraged by the lack of 
participation. We have got lots of conflicts this morning, and 
they will be coming in and out as your testimony continues.
    So you may proceed with your testimony. Do you have an 
opening remark?
    Mr. Radanovich. I do, if I can, Mr. Chairman.
    Mr. McInnis. Go ahead, Mr. Radanovich.

   STATEMENT OF HON. GEORGE RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Thank you, Mr. Chairman, for hearing this 
bill. This bill transfers 27.1 acres of National Forest Service 
property from the Stanislaus National Forest to the Clovis 
Unified School District. And by so doing, this legislation will 
permit the school district to continue to operate the Five Mile 
Regional Learning Center on this National Forest land.
    And more specifically, the bill would allow the school 
district to fund necessary capital improvements to the Learning 
Center facilities. Without this legislation, these improvements 
and non-Federal expenditures are not permitted, and the 
Learning Center could not continue, due to its current 
disrepair.
    The Five Mile Regional Learning Center is an outdoor 
environmental educational school that benefits youth from all 
over the State of California. The Regional Learning Center 
serves 138 schools from approximately 60 school districts in 
California, and approximately 14,000 students participated in 
this educational program last year.
    A variety of classes is offered, with an emphasis on 
natural resource conservation. In addition to the environmental 
education program, the school district offers course work on 
character development, team building, and individualized 
challenge activities such as high ropes. During the summer, 
this site is used by a variety of groups. In addition, a number 
of counties in conjunction with local and state agencies bring 
at-risk kids to the program's Life's Alternatives Involving 
Risks, or LAIR, Adventure Academy.
    The 120-acre Five Mile Regional Learning Center has been 
operated by the Clovis Unified School District since 1989. And 
prior to that, the Fresno County Office of Education started in 
1969 operating the project.
    While the Five Mile Regional Learning Center is located on 
National Forest land, the Federal Government plays no role in 
the operation or maintenance of the facilities or in the 
delivery of educational programs. The National Forest Service 
merely permits the use of these facilities and public lands to 
the Clovis Unified School District, and monitors the program to 
ensure the district adheres to permit requirements.
    The Forest Service has not funded or appropriated monies to 
maintain or operate these buildings. According to Forest 
Service documents, the Regional Learning Center facility has 
outlived its life by years and, if it were not for the efforts 
of the Clovis Unified School District, the buildings would be 
in a state of disrepair, no longer usable.
    The Clovis Unified School District has, on average, spent 
more than $1 million per year over the last 12 years on 
operation and maintenance. And without the transfer of 
ownership, the Clovis Unified School District is prohibited by 
law from spending its money on capital improvements to ensure 
that these facilities do not fall into disrepair.
    In addition to the ongoing commitment of spending more than 
$1 million per year in operating costs, the Clovis Unified 
School District is willing to invest $5 million over 5 years in 
capital improvements and renovations to the existing 
facilities.
    I understand that there are concerns regarding the fair 
market value of this property, but Clovis Unified is not a 
private-sector, for-profit institution. It is a school 
district, and the school district does not intend to use this 
acreage for marketplace purposes. Instead, Clovis Unified is 
committed to maintaining the public value in this land and 
these facilities out of its own pocket.
    Additionally, in the 106th Congress, H.R. 150 was signed 
into law, which provides the Secretary of Agriculture the 
authority to convey Forest Service land for educational 
purposes. The Forest Service has yet to make any conveyances 
under H.R. 150, and has yet to write regulations to implement 
the Act, which is why H.R. 3401 is before us today.
    In addition to the transfer, H.R. 3401 authorizes a new 
special use permit that would continue to authorize Clovis 
Unified's use of the adjacent 100 acres. There are no 
structures in need of capital improvements on these 100 acres.
    The Federal costs of this transfer are administrative only, 
and are negligible to the amount that the school district will 
be spending to increase the value of the property and run this 
valuable educational program for the benefit of the children of 
California.
    In conclusion, this legislation is a positive effort in 
effective local, state, and Federal Government cooperation.
    I look forward to hearing from the witnesses today. And 
thank you, Mr. Chairman, for allowing this bill to be heard.
    [The prepared statement of Mr. Radanovich follows:]

 Statement of The Honorable George P. Radanovich, a Representative in 
                 Congress from the State of California

    Mr. Chairman, thank you for considering H.R. 3401 today, the 
California Five Mile Regional Learning Center Transfer Act.
    This bill transfers 27.1 acres of National Forest Service property 
from the Stanislaus Forest to the Clovis Unified School District. By so 
doing, this legislation will permit the school district to continue to 
operate the Five Mile Regional Learning Center on this National Forest 
land and, more specifically, the bill would allow the school district 
to fund necessary capital improvements to the Learning Center 
facilities. Without this legislation, these improvements and non-
federal expenditures would not be permitted and the Learning Center 
could not continue due to dilapidation.
    The Five Mile Regional Learning Center is an Outdoor Environmental 
Education School that benefits youth from all over the state of 
California. The Regional Learning Center serves 138 schools from 
approximately 60 school districts in California. Approximately 14,000 
students participated in this educational program last year. A variety 
of classes are offered with an emphasis on natural resource 
conservation. In addition to the environmental education program, the 
school district offers course work on character development, team 
building, and individualized challenge activities such as high ropes. 
During the summer the site is used by a variety of groups. In addition, 
a number of counties in conjunction with local and state agencies bring 
``At risk kids'' to the program's Life's Alternatives Involving Risks 
(LAIR) Adventure Academy.
    The 120-acre Five Mile Regional Learning Center has been operated 
by the Clovis Unified School District since 1989. Prior to that the 
Fresno County Office of Education starting in 1969 operated the 
project.
    While the Five Mile Regional Learning Center is located on National 
Forest Land, the Federal Government plays no role in the operation or 
maintenance of the facilities used by the program or in delivery of the 
educational program. The National Forest Service merely permits the use 
of these facilities and public land to the Clovis Unified School 
District, and monitors the program to ensure the District adheres to 
permit requirements. The Forest Service has not funded or appropriated 
monies to maintain or operate these buildings. According to Forest 
Service documents the, ``Regional Learning Center facility has outlived 
its life by years, and, if it were not for the efforts of the Clovis 
Unified School District, the buildings would be in a state of disrepair 
useable to no one.''
    The Clovis Unified School District has--on average--spent more that 
$1 million per year over the last 12 years on operation and 
maintenance. Without transfer of ownership, the Clovis Unified School 
District is prohibited by law from spending its money on capital 
improvements to ensure that these facilities do not fall into 
disrepair.
    In addition to the ongoing commitment of spending more than $1 
million per year in operation costs, the Clovis Unified School District 
is willing to invest $5 million over 5 years in capital improvements 
and renovations to the existing facilities.
    I understand there are concerns regarding the fair market value of 
this property. Clovis Unified is not a private sector, for-profit 
institution. It is a school district. The school district does not 
intend to use this acreage for marketplace purposes. Instead, Clovis 
Unified is committed maintaining the public value in this land and 
these facilities out of its own pocket.
    Additionally, in the 106th Congress, H.R. 150 was signed into law. 
It provides the Secretary of Agriculture the authority to convey Forest 
Service Land for educational purposes. The Forest Service has yet to 
make any conveyances under H.R. 150 and has yet to write regulations to 
implement the Act, which is why H.R. 3401 is before us today.
    In addition to the transfer, the H.R. 3401 authorizes a new Special 
Use permit that would continue to authorize Clovis Unified's use of the 
adjacent 100 acres. There are no structures in need of capital 
improvement on the 100 acres.
    The Federal costs of this transfer are administrative-only and 
negligible to the amount that the school district will be spending to 
increase the value of the property and run this valuable educational 
program for the children of California.
    In conclusion, this legislation is a positive effort in effective 
local, state and Federal Government cooperation. I look forward to 
hearing from the witnesses and addressing any issues that arise today.
    Thank you, again, Mr. Chairman for holding this hearing.
                                 ______
                                 
    Mr. McInnis. All right, let's proceed. My understanding is 
you have got some testimony for the other bills, as well, and 
you wish to proffer all of that at this point?
    Ms. Estill. I would like to do all three at once, if I 
could.
    Mr. McInnis. And then you will stay around for questioning?
    Ms. Estill. Sure will.
    Mr. McInnis. Thank you. You may proceed.

   STATEMENT OF ELIZABETH ESTILL, DEPUTY CHIEF, PROGRAMS AND 
  LEGISLATION, FOREST SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Ms. Estill. Thank you very much for inviting us to 
participate, and for this opportunity to appear before you 
today. I am Elizabeth Estill, the Deputy Chief for Programs and 
Legislation of the USDA Forest Service, and I am here to 
provide the Department's views on three bills: H.R. 3962, the 
Good Neighbor Act; H.R. 3401, the California Five Mile Regional 
Learning Center Transfer Act; and H.R. 3954, the Caribbean 
National Forest Wild and Scenic Rivers Act.
    The Department supports H.R. 3954, the Caribbean National 
Forest Wild and Scenic Rivers Act, with some very minor 
technical corrections. The Department would like to work with 
the Committee to make a number of improvements to H.R. 3401, 
the California Five Mile Regional Learning Center Transfer 
Act--although I would say right now that we are certainly in 
favor of the transfer--and H.R. 3962, the Good Neighbor Act, 
before these bills move forward.
    H.R. 3962, the Good Neighbor Act: It limits the ability of 
the National Park Service, Fish and Wildlife Service, Bureau of 
Land Management, and the Forest Service, to acquire land within 
counties already containing 50 percent Federally controlled 
land. H.R. 3962 would require the agencies to dispose of land 
equal to 97 percent of the value of the land to be acquired in 
those counties.
    In addition, the Act requires the agency to notify the 
Governor, the chief executive of the county, and members of the 
House and Senate, prior to the acquisition. It also requires 
the agency to hold a hearing prior to the acquisition, within 
the county in which the land is located. If the Federally owned 
lands in the county exceed 66 percent, H.R. 3962 requires 
approval of the Federal acquisition by the governing 
legislative body of the county.
    The Department recognizes and supports addressing the needs 
of local citizens to participate in decisions regarding Federal 
lands within their counties. However, we would like to work 
with the Committee to modify, where necessary, some of the 
limitations of H.R. 3962. For example, we should ensure that 
H.R. 3962 is consistent with the existing and individual state 
enabling acts that authorize and provide conditions on 
approvals of Forest Service acquisitions as required by the 
Weeks Act.
    H.R. 3962 also requires the Federal agencies to dispose of 
land equal in value to lands acquired, without providing a 
related sales authority. The Forest Service does not have a 
general sales authority to accomplish the bill's purposes.
    And finally, we should work to ensure that H.R. 3962 would 
not unnecessarily limit the ability of the Forest Service to 
acquire lands to further the purposes of land management 
mandates imposed under other statutes, such as the Federal Land 
Policy and Management Act, the Multiple-Use Sustained Yield 
Act, and the Forest and Rangeland Renewable Resources Planning 
Act, and the National Forest Management Act.
    We agree that additional Federal acquisitions should, as a 
rule, be discussed with local elected officials to communicate 
both the public needs, and also have the Forest Service better 
understand the communities' perspective on the impact. And we 
are committed to work with the Committee to meet that 
objective. We look forward to working with the Committee to 
identify ways to better involve local citizens in land 
acquisition decisions, while still retaining the authority of 
the Federal Government to acquire those lands which are in the 
broader public's interest.
    H.R. 3401 directs the Secretary of Agriculture to convey 
without consideration 27 acres of National Forest System lands 
to the Clovis, California Unified School District. This 
conveyance would also include the improvements that comprise 
the Five Mile Regional Learning Center. In addition, the bill 
directs the Secretary of Agriculture to enter into negotiations 
on the terms of a special use permit with the school district, 
to allow their use of an additional 100 acres of National 
Forest System land.
    This bill includes a reversionary clause in which the 
property conveyed would revert to the United States if the 
school district discontinues its operation of the Learning 
Center.
    The Department does not support the conveyance of land and 
improvements without consideration. Rather, we would like to 
work with the Committee to pursue this transaction in a manner 
consistent with either the Sisk Act, Public Law 90-171, or the 
Education Land Grant Act, Public Law 106-577, which both allow 
conveyance of the National Forest System lands for educational 
purposes.
    Presently, personnel on the Stanislaus National Forest are 
working with the school district to explore the conveyance of 
this land under Public Law 106-577. In addition, we would like 
to work with the Committee to ensure that a reversionary 
interest in the land would limit the potential liability to the 
Federal Government.
    H.R. 3954, the Caribbean National Forest Wild and Scenic 
Rivers Act, amends Section 3(a) of the Wild and Scenic Rivers 
Act, to designate three rivers in the Caribbean National Forest 
in the Commonwealth of Puerto Rico as components of the 
National Wild and Scenic River System.
    The segments to be designated include 4.4 miles of the Rio 
Mamayes, 2.1 miles of the Rio de la Mina, and 2.3 miles of the 
Rio Icacos. H.R. 3954 would allow, subject to the Secretary's 
discretion, installation and maintenance of data collection and 
transmission facilities, construction and maintenance of 
structures to allow monitoring of flora and fauna, and 
construction and maintenance of trails for research facilities.
    The Department supports H.R. 3954, with a very small number 
of technical corrections, which have been discussed with your 
staff.
    This concludes my testimony, and I look forward to 
answering any questions that you may have.
    [The prepared statement of Ms. Estill follows:]

Statement of Elizabeth Estill, Deputy Chief, Programs and Legislation, 
  Forest Service, U.S. Department of Agriculture, on H.R. 3962, H.R. 
                          3401, and H.R. 3954

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today. I am Elizabeth Estill, Deputy 
Chief for Programs and Legislation, USDA Forest Service. I am here 
today to provide the Department's views on three bills: H.R. 3962 Good 
Neighbor Act, H.R. 3401 California Five Mile Regional Learning Center 
Transfer Act, and H.R. 3954 Caribbean National Forest Wild and Scenic 
Rivers Act.
    The Department supports H.R. 3954 Caribbean National Forest Wild 
and Scenic Rivers Act with some technical corrections. The Department 
would like to work with the Committee to make a number of improvements 
to H.R. 3401 California Five Mile Regional Learning Center Transfer Act 
and H.R. 3962 Good Neighbor Act before these bills move forward.
H.R. 3962 Good Neighbor Act
    H.R. 3962 Good Neighbor Act limits the ability of the National Park 
Service, Fish and Wildlife Service, Bureau of Land Management, and the 
Forest Service to acquire land within counties already containing 50 
percent Federally controlled land. H.R. 3962 would require the agencies 
to dispose of land equal to 97 percent of the value of the land to be 
acquired in those counties. In addition, H.R. 3962 requires the Agency 
to notify the Governor, chief executive of the county, and Members of 
the House and Senate prior to the acquisition. H.R. 3962 also requires 
the Agency to hold a hearing, prior to the acquisition, within the 
county in which the land is located. If the Federally controlled land 
within the county exceeds 66 percent of the land area of the county, 
H.R. 3962 requires approval of the Federal acquisition by the governing 
legislative body of the county.
    The Department recognizes and supports addressing the needs of 
local citizens to participate in decisions regarding Federal lands 
within their counties. However, we would like to work with the 
Committee to modify where necessary limitations imposed on Federal 
acquisitions by H.R. 3962.
    For example, we should ensure that H.R. 3962 is consistent with 
existing individual state enabling acts that authorize and provide 
conditions on approvals of Forest Service acquisitions as required by 
the Weeks Act (P.L. 61-435).
    H.R. 3962 also requires the Federal agencies to dispose of land 
equal in value to lands acquired without providing a related sales 
authority. The Forest Service does not have a general sales authority 
to accomplish the bill's purpose.
    Finally, we should work to ensure that H.R. 3962 would not 
unnecessarily limit the ability of the Forest Service to acquire lands 
to further the purposes of land management mandates imposed under other 
statutes, such as the Federal Land Policy and Management Act, the 
Multiple-Use Sustained Yield Act, the Forest and Rangeland Renewable 
Resources Planning Act, and the National Forest Management Act.
    We agree that additional Federal acquisitions should, as a rule, be 
discussed with local elected officials to communicate the needs as well 
as understand the impacts on communities and are committed to work with 
the Committee to meet that objective. We look forward to working with 
the Committee to identify ways to better involve local citizens in land 
acquisition decisions while still retaining authority of the Federal 
Government to acquire those lands which are in the broader public's 
interest.
H.R. 3401 California Five Mile Regional Learning Center Transfer Act
    H.R. 3401 directs the Secretary of Agriculture to convey without 
consideration 27 acres of National Forest System lands to the Clovis, 
California Unified School District. The conveyance would also include 
the improvements that comprise the Five Mile Regional Learning Center. 
In addition, the bill directs the Secretary of Agriculture to enter 
into negotiations on the terms of a special use permit with the school 
district to allow their use of an additional 100 acres of National 
Forest System land. The bill includes a reversionary clause in which 
the property conveyed would revert to the United States if the school 
district discontinues its operation of the Learning Center.
    The Department does not support the conveyance of land and 
improvements without consideration. Rather, the Department would like 
to work with the Committee to pursue this transaction in a manner 
consistent with either the Sisk Act, P.L. 90-171 or the Education Land 
Grant Act, P.L. 106-577, which both allow conveyance of National Forest 
System lands for educational purposes. Presently, personnel on the 
Stanislaus National Forest are working with the school district to 
explore conveyance of this land under P.L. 106-577. In addition, we 
would like to work with the Committee to ensure that a reversionary 
interest in the land would limit potential liabilities to the 
Government.
H.R. 3954 Caribbean National Forest Wild and Scenic Rivers Act.
    H.R. 3954 Caribbean National Forest Wild and Scenic Rivers Act 
amends Section 3(a) of the Wild and Scenic Rivers Act (16 U.S.C. 
1274(a)) to designate three rivers in the Caribbean National Forest in 
the Commonwealth of Puerto Rico as components of the National Wild and 
Scenic River System. The segments to be designated by H.R. 3954 include 
4.4 miles of the Rio Mameyes, 2.1 miles of the Rio de la Mina, and 2.3 
miles of the Rio Icacos. H.R. 3954 would allow, subject to the 
Secretary's discretion, installation and maintenance of data collection 
and transmission facilities, construction and maintenance of structures 
to allow monitoring of threatened and endangered species, and 
construction and maintenance of trails for research facilities.
    The Department supports H.R. 3954 with a small number of technical 
corrections. We recommend that subsection 2(c) be eliminated as the 
Wild and Scenic Rivers Act includes direction for establishing a river 
corridor boundary, submitting the resulting map and legal description 
to Congress, and providing for public inspection of the map and legal 
description (16 U.S.C. 1274 (b) and (c)). This matter has been 
discussed with your staff, as well as other minor technical 
corrections.
Conclusion:
    This concludes my testimony. I look forward to answering any 
questions you may have.
                                 ______
                                 
    Mr. McInnis. Thank you, Ms. Estill.
    You may proceed, Dr. Bradley.

 STATEMENT OF TERRY BRADLEY, Ed.D., DEPUTY SUPERINTENDENT FOR 
    ADMINISTRATIVE SERVICES, CLOVIS UNIFIED SCHOOL DISTRICT

    Mr. Bradley. Chairman McInnis and members of the House 
Subcommittee on Forests and Forest Health, thank you for the 
opportunity to testify in support of H.R. 3401, the California 
Five Mile Regional Learning Center Transfer Act. My name is 
Terry Bradley, Deputy Superintend for Administrative Services 
for the Clovis Unified School District. And it is my honor to 
represent our district at today's hearing in support of H.R. 
3401, as introduced by the Honorable George Radanovich in the 
House of Representatives on December 4, 2001. As part of my 
testimony, there are several exhibits that I ask be 
incorporated as part of the record.
    The Clovis Unified School District is located in Fresno 
County, in the middle of the great Central Valley in 
California. Clovis Unified serves approximately 33,500 students 
in grades K through 12. Clovis students live in the Cities of 
Clovis and Fresno, plus parts of the County of Fresno. And I 
have been a staff member of Clovis Unified since 1976.
    Clovis Unified has leased the Five Mile Regional Learning 
Center from the Forest Service under a special use permit since 
1989. During this time period, we have established an excellent 
working relationship with the Forest Service. We fully expect 
that this cooperative relationship between the district and the 
Forest Service will continue if title to the Regional Learning 
Center conveys to our school district.
    The Regional Learning Center is located on approximately 
27.1 acres in the Stanislaus National Forest, at approximately 
4,100 feet in elevation. The nearest city to the Regional 
Learning Center is the city of Sonora. The 27.1-acre site was 
initially developed during the early 1960's by the Forest 
Service, and consists of several barracks, a cafeteria/kitchen 
building, classrooms, gymnasium, and shop buildings. In 1999, 
Clovis Unified and the Forest Service amended the special use 
permit to add approximately 93-plus acres adjacent to the 
Regional Learning Center for use for outdoor educational 
purposes.
    The center is used as an outdoor educational environmental 
school for students in fourth through twelfth grades. During 
the 2000-2001 school year, the center served more than 14,000 
students, from 140 schools and 60 school districts from 
throughout the State of California. Since our district assumed 
management of the center, more than 160,000 students have 
benefited from the center's program.
    Classes range from forest to raptor studies, with an 
emphasis on national resource conservation. In addition to our 
environmental education program, classes are also offered on 
character development, team building, and individual challenges 
such as high-rope climbing. A more thorough description of our 
educational programs offered to students at the center is 
included in our written testimony as an exhibit.
    In addition, the Regional Learning Center is also used for 
conferences, workshops, and athletic camps for both youths and 
adults. A sample of the activities hosted by the center during 
the past year include a technology conference for teachers, the 
California Department of Forestry Academy, several summer 
basketball camps, and retreats for both youths and adults.
    The buildings and structures of the center have been in 
existence since the early 1960's. Because of financial 
shortfalls, the Forest Service has not been able to maintain or 
operate these buildings. Since taking over the operation of 
this center in 1989, Clovis Unified has spent more than $1 
million each year operating the center. During the last fiscal 
year, our operating expenses exceeded $1.2 million. We have 
invested more than $14 million in the operations of the 
Learning Center since 1989.
    In addition to the operating costs, Clovis Unified is 
prepared to invest funds necessary to modernize and improve the 
Regional Learning Center's facilities. However, because Clovis 
Unified does not own the land or buildings, we are prohibited 
from spending district of state money for capital facility 
improvements or renovations at the center. Capital investments 
must be made now to continue the Regional Learning Center. With 
title to the center's lands and buildings, Clovis Unified can 
use district and state funds to make the necessary facility 
improvements.
    H.R. 3401 will transfer ownership of the center to Clovis 
Unified. Approval of H.R. 3401 is necessary so that the capital 
renovations and improvements vital to the continued use of the 
center can and will be completed.
    According to a Forest Service representative, the Regional 
Learning Center facility has outlived its life by years, and if 
it were not for the efforts of the district, the buildings 
would be in a state of disrepair, usable to no one. In a letter 
to our district dated June 5, 2000, by the Stanislaus National 
Forest Supervisor, it stated, ``We have considered your request 
and believe that your acquisition of the Learning Center would 
be in the interest of the public and the Forest Service.''
    Clovis Unified is committed to invest $5 million over 5 
years in capital renovations and improvements, if H.R. 3401 is 
approved. This investment is in addition to our $1.2 million 
annual expenditure provided for operation and routine 
maintenance.
    H.R. 3401 would also authorize a new special use permit to 
continue the authorization.
    Mr. McInnis. Mr. Bradley, could you wrap it up, please?
    Mr. Bradley. Oh, I am sorry. Well, I will just finish up, 
then.
    In closing, we urge your support and approval for this 
legislation that should be considered non-controversial and a 
wonderful example of effective local, state, and Federal 
Government cooperation. The Federal costs of this transfer are 
administrative only, and negligible compared to the investment 
our district is willing to make and the improved and continuing 
educational services provided students throughout our state.
    Thank you, Mr. Chairman, and members of the Committee, for 
the opportunity to testify today. We look forward to working 
with the Committee and the Forest Service on this legislation. 
Thank you.
    [The prepared statement of Mr. Bradley follows:]

     Statement of Terry Bradley, Ed.D., Deputy Superintendent for 
   Administrative Services, Clovis Unified School District, City of 
      Clovis, County of Fresno, State of California, on H.R. 3401

    Chairman McInnis and Members of the House Subcommittee on Forests 
and Forest Health, thank you for the opportunity to testify in support 
of H.R. 3401, the California Five Mile Regional Learning Center 
Transfer Act.
    My name is Terry Bradley; Deputy Superintendent for Administrative 
Services for the Clovis Unified School District and it is my honor to 
represent our school district at today's hearing in support of H.R. 
3401, the ``California Five Mile Regional Learning Center Transfer 
Act'' introduced by the Honorable George Radanovich in the House of 
Representatives on December 4, 2001. As part of my testimony, there are 
several exhibits that I ask be incorporated as part of the record.
    The Clovis Unified School District is located in Fresno County, 
which is the heart of the great Central Valley in California. Clovis 
Unified serves approximately 33,500 students in grades K-12. Clovis 
students live in the cities of Clovis and Fresno plus parts of the 
County of Fresno. I have been on the staff of Clovis Unified since 
1976.
    Clovis Unified has leased the Five Mile Regional Learning Center 
from the Forest Service under a Special Use Permit since 1989. During 
this time period, we have established an excellent working relationship 
with the Forest Service. We fully expect that this cooperative 
relationship between the Clovis Unified School District and the Forest 
Service will continue if title to the Five Mile Regional Learning 
Center conveys to our school district.
    The Regional Learning Center is located on approximately 27.1 acres 
in the Miwok Ranger District of the Stanislaus National Forest at 
approximately 4,100 feet in elevation. The nearest city to the Regional 
Learning Center is the City of Sonora. The 27.1-acre site was initially 
developed during the early 1960's by the Forest Service and consists of 
several barracks, a cafeteria/kitchen building, classrooms, and 
gymnasium and shop buildings. In 1999 Clovis Unified and the Forest 
Service amended the Special Use Permit to add approximately 93 acres 
adjacent to the Regional Learning Center for use for outdoor 
educational purposes.
    The Regional Learning Center is used as an Outdoor Environmental 
Educational School for students in fourth through twelfth grade. During 
the 2000-01 school year, the Regional Learning Center served more than 
14,000 students from 140 schools and 60 school districts from 
throughout the State of California. Since CUSD assumed management of 
the Center, more than 160,000 students have benefited from the Center's 
programs. Classes range from forest to raptor studies with an emphasis 
on natural resource conservation. In addition to our environmental 
education program, classes are also offered on character development, 
team building and individual challenge activities such as high rope 
climbing. A more thorough description of educational programs offered 
to students at the Regional Learning Center is included in our written 
testimony as an exhibit.
    The Regional Learning Center is also used for conferences, 
workshops and athletic camps for both our youth and adults. A sample of 
the activities hosted by the Center during the past year include a 
technology conference for educators, the California Department of 
Forestry Academy, several summer basketball camps and retreats for both 
youth and adults.
    The buildings and structures at the Regional Learning Center have 
been in existence since the early 1960's. Because of financial 
shortfalls, the Forest Service has not been able to maintain or operate 
these buildings. Since taking over the operation of the Regional 
Learning Center in 1989, Clovis Unified School District has spent more 
than $1 million each year operating the Center. During the last fiscal 
year, our operating expenses exceeded $1.2 million. Clovis has invested 
more than $14 million in the operations of the Learning Center.
    In addition to the operating costs, Clovis is prepared to invest 
the funds necessary to modernize and improve the Regional Learning 
Center's facilities. However, because Clovis Unified does not own the 
land or buildings, we are prohibited from spending District or State 
money for capital facility renovations or improvements at the Regional 
Learning Center. Capital investments must be made now to continue the 
Regional Learning Center. With title to the Center's land and buildings 
Clovis can use District and State funds to make the necessary facility 
improvements.
    H.R. 3401 will transfer ownership of the Regional Learning Center 
to the Clovis Unified School District. Approval of H.R. 3401 is 
necessary so that capital renovations and improvements vital to the 
continued use of the Regional Learning Center can and will be 
completed. Otherwise the condition of the Center's buildings and 
infrastructure will result in the discontinuation of the Regional 
Center's operation.
    According to a Forest Service representative, the Regional Learning 
Center facility has outlived its life by years and if it were not for 
the efforts of the Clovis Unified School District, the buildings would 
be in a state of disrepair useable to no one. In a letter to our 
District dated June 5, 2000, Ben Del Villar, the Stanislaus National 
Forest Supervisor, stated that, ``We have considered your request and 
believe that your acquisition of the Learning Center would be in the 
interest of the public and the Forest Service.''
    Clovis Unified is committed to invest $5 million over 5 years in 
capital renovations and improvements to the Regional Learning Center if 
H.R. 3401 is approved. This investment is in addition to the $1.2 
million annual expenditure provided by CUSD for operations and routine 
maintenance. Also, we are committed to continuing to expand and enhance 
our outdoor educational curriculum to provide students from throughout 
California with the best experience possible during their stay at our 
facility.
    H.R. 3401 would also authorize a new Special Use permit to continue 
the authorization for our school district to use the adjacent 93+ acres 
as presently used for environmental program activities. H.R. 3401 
provides that title to the real property conveyed under the Act would 
revert if the Clovis Unified School District discontinues its operation 
of the Five Mile Regional Learning Center.
    Included with our written testimony is a full description of the 
educational program offered at the Regional Learning Center along with 
maps that identify the location of the Regional Learning Center and 
adjacent property that is affected by H.R. 3401. Also, we have attached 
as exhibits several letters sent to members of the California 
Congressional delegation from schools throughout the State of 
California. These letters are from school districts that have utilized 
the Regional Learning Center and express support for the proposed 
legislation.
    In closing, we urge your support and approval for this legislation 
that should be considered non-controversial and a wonderful example of 
effective local, state and Federal Government cooperation. The Federal 
costs of this transfer are administrative only and negligible compared 
to the investment Clovis Unified is willing to make in both operational 
expenditures and capital facility improvements. The result will be the 
continuation and enhancement of this valuable outdoor educational 
program and the continuation of Outdoor Environmental programs utilized 
and appreciated by school and community groups throughout California.
    Thank you, Mr. Chairman and members of the Committee for the 
opportunity to testify and for your consideration of H.R. 3401. We look 
forward to working with the Committee and the Forest Service on this 
legislation.
                                 ______
                                 
    [Attachments to Mr. Bradley's statement follow:]
    [GRAPHIC] [TIFF OMITTED] 78631.001
    
    [GRAPHIC] [TIFF OMITTED] 78631.002
    
    [GRAPHIC] [TIFF OMITTED] 78631.003
    
    [GRAPHIC] [TIFF OMITTED] 78631.004
    
    [GRAPHIC] [TIFF OMITTED] 78631.005
    
    [GRAPHIC] [TIFF OMITTED] 78631.006
    
    [GRAPHIC] [TIFF OMITTED] 78631.007
    
    [GRAPHIC] [TIFF OMITTED] 78631.008
    
    [GRAPHIC] [TIFF OMITTED] 78631.009
    
    [GRAPHIC] [TIFF OMITTED] 78631.010
    
    [GRAPHIC] [TIFF OMITTED] 78631.011
    
    [GRAPHIC] [TIFF OMITTED] 78631.012
    
    [GRAPHIC] [TIFF OMITTED] 78631.013
    
    [GRAPHIC] [TIFF OMITTED] 78631.014
    
    [GRAPHIC] [TIFF OMITTED] 78631.015
    
    [GRAPHIC] [TIFF OMITTED] 78631.016
    
    [GRAPHIC] [TIFF OMITTED] 78631.017
    
    [GRAPHIC] [TIFF OMITTED] 78631.018
    
    [GRAPHIC] [TIFF OMITTED] 78631.019
    
    Mr. McInnis. All right. We will open it up for questions on 
the witnesses. Our primary focus here is Mr. Radanovich's bill, 
so that is where I would like to restrict the questions to, 
specifically to that bill. After we have those questions, then 
we will move on to the next bill. Are there any questions?
    Mr. Radanovich. If I may, Mr. Chairman, just a couple of 
questions?
    Mr. McInnis. Yes.
    Mr. Radanovich. Elizabeth, thank you for being here to 
testify. And I notice in your testimony that you mentioned 
support of the bill. But there are some circumstances regarding 
the bill, and one of the issues mentioned was the issue of 
liability.
    I am familiar with some of these issues, when you had 
mentioned some of your public law. And I am not sure how they 
match up against H.R. 150, which was the law that allowed 
Forest Service transfer to educational groups. I am aware that 
this is the first law to be implemented by that, and there are 
no regulations that have been set up by the Department. And 
sometimes the first bill implementing a bill previously passed 
is sometimes laborious. But you had mentioned a liability issue 
that I am not quite familiar with.
    Ms. Estill. Pretty unlikely, considering the use of this 
facility. However, we would like to protect ourselves so that 
the Secretary could not take the land back if it should be 
contaminated with whatever contamination might exist out there.
    Mr. Radanovich. The area of liability that you are 
concerned with, then, is basically environmental clean-up 
possibilities?
    Ms. Estill. Exactly.
    Mr. Radanovich. Those kinds of things?
    Ms. Estill. Exactly.
    Mr. Radanovich. OK.
    Ms. Estill. The real issue, if I might, that we have is 
that the Education Land Grant Act really will suffice. And it 
does require a nominal fee of $10 an acre.
    Mr. Radanovich. They are more than willing to pay that $10.
    Ms. Estill. And we think we can do it, just under that 
authority.
    Mr. Radanovich. OK. Good. I am not sure there are any other 
questions that I have. Well, Mr. Bradley, let me ask a couple 
of quick questions. Do you plan to harvest trees on this 
property?
    Mr. Bradley. No. No.
    Mr. Radanovich. No? OK. And do you have any plans to 
restrict public access to any of the roads there?
    Mr. Bradley. No. We would like as many people to enjoy the 
facility as possible.
    Mr. Radanovich. All right. OK. Those are all the questions 
that I have, Mr. Chairman.
    Thank you very much, Mr. Bradley for being here.
    Mr. Bradley. Thank you.
    Mr. Radanovich. And thank you, Elizabeth.
    Mr. McInnis. Are there any further questions in regards to 
this bill? Go ahead.
    Mr. Acevedo-Vila. Yes, good morning. To Mr. Bradley, you 
quote in your testimony a Forest Service reply to your request, 
and I quote, ``We have considered your request and believe that 
the acquisition of the Learning Center would be in the public 
interest.'' Are we still talking about a purchase? That was the 
original request, to buy the land? Or what is your position 
right now with regard to that?
    Mr. Bradley. That was a letter that we received from the 
Forest Service supervisor when we started discussions about the 
purchase of the property under the old Sisk Act, in the late 
1990's. And we were not aware of the issue related to fair 
market value. We thought because of the educational values that 
our district is bringing to the full state, along with the 
Forest Service, by the use of that property, there would not be 
a fair market value issue; especially with the commitment the 
district was willing to make and capital facility improvements.
    Subsequent to that, when we had some meetings with the 
Forest supervisor, that issue came up not only for the 27.1 
acres where the center is located, that certainly has a lot of 
trees on it, that that fair market value would include the 
value of the trees for logging purposes, for which we would 
have really no private interest in doing that.
    You know, we are a public educational agency, not in the 
business--although some of our taxpayers don't think so--but 
not in the business of making money.
    Mr. Acevedo-Vila. Thank you.
    Mr. Holt. Mr. Chairman?
    Mr. McInnis. Go ahead, Mr. Holt.
    Mr. Holt. Thank you. With regard to the Five Mile Regional 
Learning Center, Ms. Estill, what is the fair market value of 
this parcel that taxpayers would be conveying?
    Ms. Estill. The last time that it was actually valued was 
in '94, I believe, and that was about $1 million. We think it 
is probably worth about $2 million now.
    Mr. Holt. Thank you.
    Mr. McInnis. Any further questions?
    [No response.]
    Mr. McInnis. If there are no further questions, I would 
like to thank the witnesses. Ms. Estill, if you will stay here, 
obviously, for the other bills?
    Mr. Bradley, thank you for your attendance in front of the 
Committee.
    Mr. Bradley. Thank you.
    Mr. McInnis. Your exhibits will be incorporated into the 
record.
    Mr. Bradley. Thank you.
    Mr. McInnis. Mr. Acevedo-Vila, we were going to take you 
next in order, but Mr. Peterson's witness has arrived, so we 
will stick with our schedule, if there is no objection.
    Our next panel would be Mr. Craig McCurry, the Elmore 
County Commissioner. And I think, Mr. Peterson, that is your 
only witness; is that correct?
    Mr. Peterson. Yes.
    Mr. McInnis. OK. Mr. Peterson, we are on your bill, H.R. 
3962. Do you have an opening statement?
    Mr. Peterson. Yes.
    Mr. McInnis. You may proceed.

    STATEMENT OF HON. JOHN E. PETERSON, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF PENNSYLVANIA

    Mr. Peterson. I would like to thank the Chairman for 
scheduling this hearing and allowing this bill to be heard. The 
Good Neighbor Act of 2002, H.R. 3962, is exactly that: a bill 
to make sure the Federal Government is a good neighbor in 
communities where they own the majority of the land in a 
county. A good neighbor is a part of the community, and 
supports the community through taxes from the land base. A good 
neighbor does not take away more acreage from the tax base, 
unless there is agreement within the county that it is in the 
best interests of the agency and the county.
    Let me simply explain how the bill works. If 50 percent or 
more of a county's land base is owned in total by the Bureau of 
Land Management, the National Park Service, the Fish and 
Wildlife Service, and the Forest Service, before an agency can 
acquire more land the agency must first sell land of equal 
value. Also, the agency can do land exchanges of equal value.
    In counties in which these agencies own 50 to 66 percent of 
the land, the agency can still acquire land, by giving notice 
to county, state, and Federal elected officials; holding a 
hearing; and getting the Governor to approve. When total agency 
ownership is above 66 percent, the elected county officials 
must approve purchases as well. So you would have the Governor 
approve and the county approve. And in all cases, the 40-acre 
inholdings can be purchased by giving notice.
    In large measure, counties with high percentages of Federal 
lands are in less populated, rural areas with small ownerships 
adjacent to, or interdispersed among, the Federal owner. These 
areas are characteristically strapped for cash and struggling 
to fund the basic infrastructure crucial to the quality of 
life.
    The bill is about fairness: making it fair for counties 
that have large Federal land holdings to maintain a tax roll to 
provide basic services just like other counties throughout the 
United States.
    I, personally, do not oppose all land acquisitions by the 
Federal Government; and neither does H.R. 3962. I fully 
understand that there are many cases in which land acquisition 
by the Federal Government is appropriate. I just want counties 
to have the option to maintain their tax base.
    I am advocating for the Federal Government to take greater 
responsibility for land acquisition decisions, to work with 
their neighbors on these decisions, and make more efficient use 
of these funds. I am promoting greater accountability to 
Congress and to local and state governments when the Federal 
Government buys land.
    My position and the intent of this bill is to leave land on 
the local property tax rolls and promote cooperative alliances. 
The Federal Government needs to be a better neighbor when it 
comes to Federal land acquisitions. The Good Neighbor Act 
specifically has been designed to only affect counties who have 
a major encroachment, while leaving a small regulatory 
footprint. The bill only affects 171 counties at the 50-percent 
factor, out of 3,066. This is less than 6 percent of all 
counties. There would be no harness placed on the Federal land 
purchased in the remaining 2,895 counties.
    Currently, a hole exists in regulation and statute which 
allows the Federal Government to buy land without notice or 
comment provided to local people. A broad cooperation and 
coordination obligation is specified under the law. This 
obligation is toothless. When the acquisition happens outside a 
management plan, no regulation exists that specifies the 
Federal Government must give state and local governments notice 
and comment. The Forest Service does not routinely conduct 
environmental assessments on land acquisitions that would allow 
for local input.
    I acknowledge that some local land managers work well with 
their communities coordinating land acquisitions. 
Unfortunately, others do not meaningfully consult with local 
governments; leaving them powerless with such important 
decisions affecting their tax rolls. Unless the law is amended, 
a patchwork will persist, with a few bright squares of 
coordination existing with far too many areas where counties 
are locked out of the process.
    Now, the President articulated his policy on the Federal 
land acquisition in his budget this year, and he speaks of: To 
make the most efficient use of these funds; to promote 
cooperative alliances; and to leave land on the state tax 
rolls. And the request emphasizes innovative alternatives to 
fee title purchases, such as conservation easements and land 
exchanges. We think our bill works right along with those 
priorities of the President.
    The Good Neighbor Act makes the most efficient use of funds 
by keeping the tax rolls stable--in other words, if you buy, 
you sell--allowing the Federal Government to use funds to take 
care of their land, while keeping PILT acres stable in those 
counties.
    H.R. 3962 promotes cooperative alliances by plugging the 
existing hole in the law and requiring land management agencies 
to seek for local input. I think that most counties and states 
will be more than willing to work with the Federal agencies in 
meeting agency goals through land acquisitions in their county. 
Most importantly, the bill is in complete harmony with the 
President's policy to leave land on the tax rolls. The land 
management agencies can still acquire land by exchange or 
purchase, after selling the needed land acreage to maintain the 
tax base.
    The bill also provides for an exception where the Federal 
Government limits its power by allowing for state and local 
governments' approval of land acquisition. This places the 
approval with local lawmakers who know the most about the needs 
of their communities. They live there; they have been elected, 
and must meet payrolls, provide services, and fund local 
initiatives on a potentially decreasing tax base. But more 
importantly, the bill provides for a process where dialog is 
needed, and where decisions are weighted with input.
    Finally, the bill promotes innovative alternatives to fee 
title purchases by promoting land exchanges. The Administration 
has taken responsible steps, and I look forward to working with 
them.
    When the Federal Government owns over half of a county, it 
can deal a crushing blow to local communities who rely on a 
solid tax base. Compounding the Federal presence is the fact 
that the Government does not pay its fair share of taxes; the 
agencies have not been able to provide revenue from timber, 
minerals, and grazing; and PILT payments continue to be under-
funded.
    It is an embarrassment that we pay our arrearages to the 
United Nations, but we do not pay our arrearages to our own 
people. From 1996 to the year 2000, the U.S. Government is 
approximately $650 million in arrearages to its own citizens 
who live adjacent to public lands. In other words, we have not 
paid the authorized amount for PILT.
    Historically, we, the Federal Government, paid less than a 
quarter per acre. Last year we increased the amount to 33 cents 
an acre, if you include all Federal ownership. Yet if that acre 
were left on the local tax roll, it would value between $1.25 
to $3 an acre. BLM did a study on their land, and came up with 
a nationwide average, if land were left on the tax rolls, of 
$1.48 for the same land that they pay 33 cents for.
    A good neighbor does not move into your house and take 
over, especially when they are not invited. County 
commissioners have been forced to increase local millage rates 
to compensate for the lack of Federal funds. In some states, 
increases in the millage rate is not allowed, and they are 
forced to cut programs.
    An example is found in the statement of a county 
administrator for Marshall County, Mississippi, who recently 
appeared before a Forest Counties Payments Committee public 
listening session. He said, ``We have approximately 45,000 
acres of public land, and 30,000 of those are national forest, 
and the balance is the U.S. Army Corps of Engineers down the 
Tallahatchie River toward the reservoir area. No personal 
property taxes are collected on these lands, and it is left as 
a burden to the taxpayers to make up the difference in the form 
of a millage rate.''
    While Federal land plays an important role in preserving 
our national heritage and our rich environment, the land 
acquisition process should not occur at the expense of local 
communities. I ask this Committee, as a person concerned for 
rural America: Let us work together and try to have the Federal 
Government be a good neighbor.
    [The prepared statement of Mr. Peterson follows:]

Statement of The Honorable John Peterson, a Representative in Congress 
                     from the State of Pennsylvania

    Mr. Chairmen.
    The Good Neighbor Act of 2002, H.R. 3962, is exactly that--a bill 
to make sure the Federal Government is a good neighbor in communities 
where they own the majority of land in a county. A good neighbor is a 
part of the community and supports the community through taxes from the 
land base. A good neighbor does not take away more acreage from the tax 
base, unless there is agreement within the county that is the best for 
the Agency and for the county.
    Let me simply explain how this bill works. If 50% or more of a 
county's land base is owned, in total, by BLM, NPS, F&WS, and FS, 
before an agency can acquire more land, the agency must first sell land 
of equal value. Also, the agency can do land exchanges of equal value. 
In counties in which these agencies own 50-66% of the land, the agency 
can still acquire land by giving notice to county, state, and Federal 
elected officials, hold a hearing, and get governor approval. When 
total agency ownership is above 66%, the elected county officials must 
approve purchases as well. In all cases, 40-acre inholdings can be 
purchased by giving notice.
    In large measure, counties with high percent of Federal land are in 
less populated, rural areas with small ownerships adjacent to or 
interdispersed among the larger Federal owner. These areas are 
characteristically strapped for cash and struggling to fund the basic 
infrastructure crucial to quality of life. This bill is about 
fairness--making it fair for counties that have large Federal land 
holdings to maintain a tax roll to provide basic services just like 
other counties throughout the US. I, personally, do not oppose all land 
acquisition by the Federal Government and neither does H.R. 3962. I 
fully understand that there are many cases in which land acquisition by 
the Federal Government is appropriate. I just want the counties to have 
the option to maintain (not even asking they increase, just maintain) 
their tax roll base.
    I am advocating for the Federal Government to take greater 
responsibility for the land acquisition decisions, to work with their 
neighbors on these decisions, and make more efficient use of those 
funds! I am promoting greater accountability to congress and to local 
and state governments when the Federal Government buys land! My 
position and the intent of this bill is to leave land on the local 
property tax rolls and promote cooperative alliances! The Federal 
Government needs to be a better neighbor when it comes to Federal land 
acquisitions. The good neighbor act specifically has been designed to 
only affect counties who have a major Federal encroachment while 
leaving a small regulatory footprint. The bill only affects 171 
counties out of a total of 3066, this is less then 6% of all counties. 
There would be no harness placed on the Federal land purchases in the 
remaining 2895 counties.
    Currently, a hole exists in regulation and statute that allows the 
Federal Government to buy land without notice or comment provided to 
local people. A broad cooperation and coordination obligation is 
specified under current law. This obligation is toothless. When the 
acquisition happens outside a management plan, no regulation exists 
that specifies the Federal Government must give state and local 
governments notice and comment. The Forest Service does not routinely 
conduct environmental assessments on land acquisitions that would allow 
for local input. I acknowledge that some local land managers work well 
with their communities coordinating land acquisitions. Unfortunately, 
others do not meaningfully consult with local government, leaving them 
powerless with such important decisions affecting their tax rolls. 
Unless, the law is amended, a patchwork will persist with a few bright 
squares of coordination co-existing with far to many dull patches where 
counties are locked out of the process.
    The President articulated his policy on Federal land acquisition in 
The Fiscal Year 2003, The Interior Budget in Brief. The bill follows 
tenets of the President's vision for Federal land acquisition programs 
as outlined in The Budget Brief. The vision is summarized as follows:
    I. To make the most efficient use of these funds
    II. Promote cooperative alliances and
    III. Leave land on state tax rolls
    IV. The request emphasizes innovative alternatives to fee title 
purchases such as conservation easements and land exchanges
    Let me take each of these policy standards and apply provisions of 
the good neighbor act.
    <bullet> LThe good neighbor act makes the most efficient use of 
funds by keeping the tax rolls stable allowing the Federal Government 
to use funds to take care of their land while keeping pilt acres stable 
in those counties.
    <bullet> LH.R. 3962 promotes cooperative alliances by plugging the 
existing hole in the law and requiring land management agencies to 
allow for local input. I think most counties and states will be more 
than willing to work with Federal agencies in meeting agency goals 
through land acquisitions in their county.
    <bullet> LMost importantly the bill is in complete harmony with the 
President's policy to leave land on the local tax rolls. The land 
management agencies can still acquire land by exchange or purchase 
after selling the needed land acreage to maintain the tax base. The 
bill also provides for an exception where the Federal Government limits 
its' power by allowing for state and local governments approval of land 
acquisition. This places the approval with local lawmakers who know the 
most about the needs of their communities. They live there, have been 
elected, and must meet payrolls, provide services, and fund local 
initiatives on a potentially decreasing tax base. But more importantly, 
the bill provides for a process where dialogue is needed, and where 
decisions are weighted with more input.
    <bullet> LFinally, the bill promotes innovative alternatives to fee 
title purchases by promoting land exchanges. The administration is 
taking responsible steps and I look forward to working with them on 
this approach.
    When the Federal Government owns over half the county it can deal a 
crushing blow to local communities who rely on a solid tax base. 
Compounding the Federal presence is the fact that the government does 
not pay it's fair share of taxes, the agencies have not been able to 
provide revenue from timber, minerals, and grazing, and pilt payments 
continue to be under funded. It is an embarrassment that we pay our 
arrearages to the United Nations but we do not pay our arrearages to 
our own people! From 1996 to 2000 the United States Government is 
approximately 650 million dollars in arrearages to our own citizens who 
live adjacent to public lands. Historically, ``we'' the Federal 
Government paid less then a quarter per acre. Last year we increased 
the amount to 33 cents an acre yet if that acre were left on the local 
tax roll it would valued between $1.25 and 3.00 dollars an acre. BLM 
did a study and came up with a nation wide average if land were left on 
the tax roll of $1.48 for the same land that we pay 33 cents. A good 
neighbor does not move into your house and take over, especially when 
they are not invited.
    County commissioners have been forced to increase local millage 
rates to compensate for the lack of Federal funds. In some states 
increases in the millage rate is not allowed and they are forced to cut 
vital programs. An example is found in the statement of a county 
administrator for Marshall County, Mississippi who recently appeared 
before a Forest Counties Payments Committee public listening session. 
He said, ``we have approximately 45,000 acres of public land, and 
30,000 of those are national forest land and the balance is U.S. Army 
Corps of Engineers land down in the Tallahatchie River towards the 
reservoir area. No personal property taxes are collected on these 
lands, and it is left as a burden to the taxpayers to make up the 
difference in the form of a millage rate.'' While Federal lands play an 
important role in preserving our national heritage and our rich 
environment, the land acquisition process should not occur at the 
expense of local communities.
    I asked you, as a person concerned for rural America, let us work 
together to be a good neighbor!
                                 ______
                                 
    Mr. McInnis. Mr. McCurry, you may proceed. You have 5 
minutes.

STATEMENT OF CRAIG McCURRY, COUNTY COMMISSIONER, ELMORE COUNTY, 
                             IDAHO

    Mr. McCurry. Mr. Chairman, distinguished members of the 
Committee, thank you for the opportunity to voice my support 
for H.R. 3962. My name is Craig McCurry, and I am the Chairman 
of the Elmore County Board of Commissioners in Elmore County, 
Idaho. I am here on behalf of the citizens of my county, and 
the Idaho Association of Counties.
    Elmore County is home to 30,000 people and Mountain Home 
Air Force Base. Elmore County and IAC applaud the efforts of 
Congress to address the fundamental issue of land acquisition 
by the Federal Government, and ask your overwhelming support of 
H.R. 3962. H.R. 3962 presents an excellent opportunity to 
minimize the impact of land acquisition on the 44 counties in 
Idaho and countless counties around the Nation affected by 
Federal land in their counties.
    We appreciate the actions of Idaho's congressional 
delegation to begin a much needed discussion of land 
acquisition by the Federal Government. The position of the 
Idaho Association of Counties, of which Elmore County is a 
member, has always been that Federal and state real property 
holdings should be maintained at a minimum level. Acquisition 
of new land by Federal or state agencies should be subject to 
the agreement of the county within which the property is 
located. If additional acquisitions are necessary and agreed 
to, local political subdivisions should be compensated for 
lands or facilities so acquired.
    The Federal Government currently owns 62 percent of Idaho, 
placing us third in the Nation for Federal land ownership. 
Elmore County is 67 percent Federally owned. Federal lands, 
although positive in some aspects, do negatively impact the 
gateway communities surrounding the Federal land. The 
acquisition of Federal land causes a property tax shift to our 
citizens, who are already facing difficult economic times.
    In addition to providing services to the residents within 
the confines of a tight budget, counties must also bear the 
additional costs of providing services to the non-residents 
recreating on Federal land, whether it be road upkeep or search 
and rescue, all without full funding of PILT.
    In the last fiscal year, Idaho received only 59 percent of 
what Congress is authorized to appropriate for PILT. Elmore 
County received a little over $1 million in PILT for fiscal 
year 2001, more than $760,000 less than authorized. This 
payment of $1 million--a tax payment for 67 percent of our 
county--amounts to only 10 percent of our current budget. That 
tax shift that this represents to the citizens is obvious.
    Let me add that even if Congress did fund PILT at the full 
authorization level, it would still be less than what could be 
generated if the lands were on the private tax rolls. 
Additionally, if private citizens owned these lands, they would 
have no choice but to pay their taxes.
    Congress should meet their tax obligations prior to 
engaging in discretionary spending. It is the fundamental 
belief of Elmore County and the Idaho Association of Counties 
that the Federal Government should not acquire more land until 
it fulfills its responsibility to the land it already owns by 
fully funding PILT and using proper management techniques to 
ensure the health of the Federal land.
    A great number of Elmore County residents make their living 
off the land, and wish these lands preserved for generations to 
come. The Federal Government has a responsibility to protect 
the land it currently owns, prior to taking more off the tax 
rolls.
    Let me take a moment to thank those of you that have 
supported PILT payments in the past. And we hope you would 
continue to do so in the future.
    One example of the impact of Federal land on a county 
budget is the amount of time and resources that are spent to 
cover search and rescue and law enforcement needs on public 
lands. In a slow year, the Elmore County sheriff's department 
spends $15,000 on search and rescue services, and is usually 
rebuffed by Federal agencies when asking for assistance, 
whether it be the use of a helicopter or financial 
reimbursement.
    The Forest Service pays the sheriff's department $16,000 a 
year to patrol the Forest Service lands within my county. That 
comes nowhere close to full reimbursement for services 
provided. The county sheriff also helps maintain and patrol the 
waterways in our county.
    Our citizens appreciate the opportunity to recreate close 
to home, but are tired of carrying the financial burden for all 
of the non-residents traveling to Elmore County to enjoy all we 
have to offer.
    H.R. 3962 is not perfect; nor does it solve all of our 
problems. But it does offer opportunities to improve upon the 
current system. H.R. 3962 limits the acquisition of land by the 
Federal Government in counties in which the Federal Government 
owns 50 percent or more of the acreage within that county, by 
requiring an almost equal land trade.
    In closing, I would like to cover one of the last aspects 
that we feel is important. Local government officials are 
closest to the people and to the communities they serve, and 
should be an integral part of any discussion of Federal land 
acquisitions. Local government officials are currently treated 
as stakeholders, and not as elected officials with the 
statutory responsibility to provide for the health, safety, and 
welfare of the citizens within our boundaries.
    I thank you for the opportunity to testify today, and thank 
you for your exemplary service.
    [The prepared statement of Mr. McCurry follows:]

         Statement of Craig McCurry, Elmore County Commissioner

    Honorable Chairman and Committee Members:
    Thank you for the opportunity to voice my support for H.R. 3962. My 
name is Craig McCurry and I am a County Commissioner representing 
Elmore County, Idaho. I am here on behalf of the Elmore County Board of 
County Commissioners and the Idaho Association of Counties (IAC). 
Elmore County is home to almost 30,000 people and Mountain Home Air 
Force Base.
    Elmore County and IAC applaud the efforts of Congress to address 
the fundamental issue of land acquisition by the Federal Government and 
ask for your overwhelming support of H.R. 3962. H.R. 3962, the ``Good 
Neighbor Act of 2002'', presents an excellent opportunity to minimize 
the impacts of land acquisition on the forty-four counties in Idaho and 
the countless counties around the nation affected by the Federal land 
in their county. We appreciate the actions of Idaho's Congressional 
Delegation, especially Congressman Otter, to begin a much-needed 
discussion of land acquisition by the Federal Government.
    The position of the Idaho Association of Counties, of which Elmore 
County is a member, has always been that:
    ``Federal and state real property holdings should be maintained at 
a minimum level. Acquisition of new land by a Federal or state agency 
should be subject to...the agreement of the county within which the 
property is located. If additional...acquisitions are necessary, and 
agreed to, local political subdivisions should be compensated for lands 
and/or facilities so acquired'' (Idaho Association of Counties Public 
Lands Book 2001).
    The Federal Government currently owns sixty-two percent (62%) of 
Idaho, placing us third in the nation for Federal land ownership. 
Elmore County is sixty-seven percent (67%) Federally owned. Federal 
lands, although positive in some aspects, do negatively impact the 
gateway communities surrounding the Federal land. The acquisition of 
Federal lands causes a property tax shift to our citizens, who are 
already facing difficult economic times.
    Tourism is not the panacea some think it might be. In addition to 
providing services to their residents within the confines of a tight 
budget--Idaho counties are subject to budget limitations--counties must 
also bear the additional costs of providing services to the non-
residents recreating on Federal land, whether it be road upkeep or 
search and rescue, all without full funding of Payment in Lieu of Taxes 
(PILT). In the last fiscal year, Idaho received only 59% of what 
Congress is authorized to appropriate for PILT. Elmore County received 
a little over $1 million in PILT for fiscal year 2001, more than 
$760,000 less than authorized. This payment of $1 million, a tax 
payment for 67% of the county is only 10% of our current budget. The 
tax shift that represents to the citizens is obvious. Let me say that 
even if Congress did fund PILT at the full authorization level, it 
would still be less than what could be generated if the lands were on 
the tax rolls. Additionally, if private citizens owned these lands, 
they would have no choice but to pay their taxes. Congress should meet 
their tax obligation prior to engaging in ``discretionary spending.''
    To add insult to injury, after recommending cutting the PILT budget 
by $45 million, the President's proposal calls for approximately $531 
million for land acquisition. It is the fundamental belief of Elmore 
County and the Idaho Association of Counties that the Federal 
Government should not acquire more lands until it fulfills its 
responsibility to the land it already owns, by fully-funding PILT and 
using proper management techniques to ensure the health of that Federal 
land. A great number of Elmore County residents make their living off 
the land and wish these lands preserved for generations to come. The 
Federal Government has a responsibility to protect the lands currently 
under its jurisdiction prior to taking more off the tax rolls.
    Let me take a moment to thank you to those of you that have 
supported PILT increases in the past and we hope that you would 
continue to do so in the future. One example of the impact of Federal 
lands on a county budget is apparent in how much time and resources is 
needed to cover the search and rescue and law enforcement needs of 
those public lands. In a slow year, Elmore County's Sheriff Department 
spends at least $15,000 each year on search and rescue services and is 
usually rebuffed by the Federal agencies when asking for assistance, 
whether it be the use of a helicopter or some financial reimbursement. 
The Forest Service pays the Sheriff's Department $16,000 a year to 
patrol the forest service lands within my county. That comes nowhere 
close to full reimbursement for services provided. The County Sheriff 
also helps maintain and patrol the waterways within our county. Not 
only do the Federal agencies not offer labor or resources to perform 
those services, the Federal agencies charge campground fees and the 
county never sees any of those revenues. Our citizens appreciate the 
opportunity to recreate close to home but are tired of carrying the 
financial burden for the non-residents traveling to Elmore County to 
enjoy all we have to offer.
    H.R. 3962 is not perfect, nor does it solve all of our problems, 
but it does offer opportunities to improve upon the current system. 
H.R. 3962 limits the acquisition of land by the Federal Government in 
counties in which the Federal Government owns 50% or more of the 
acreage within that county by requiring an almost equal land trade. Of 
the forty-four counties in Idaho, 22 are more than 50% Federal lands. 
This legislation also prevents the Federal Government from acquiring 
land, without the permission of local decision-makers, within counties 
that are currently 66% or more Federally owned. Twelve counties in 
Idaho are more than 66% Federal ownership.
    One of the crucial aspects of this legislation is the cooperation 
and consultation with local governments. Local government officials are 
closest to the people and to the community they serve and should be an 
integral part of the discussion of any action by the Federal Government 
affecting their county. Local government officials are currently 
treated as stakeholders and not as elected officials with the statutory 
responsibility to provide for the health, safety and welfare of the 
citizens within their boundaries. It is essential that we are part of 
the discussion process when decisions are made affecting our 
constituents.
    Thank you for the opportunity to voice our support for H.R. 3962. 
It is our desire that the Federal Government work toward becoming a 
good neighbor by taking this opportunity to right a wrong. The passage 
of H.R. 3962 would represent an auspicious occasion for the counties in 
America with Federal lands within their borders. Thank you for your 
exemplary service to this great nation.
                                 ______
                                 
    Mr. McInnis. As a courtesy, I am going to yield my question 
time to either of the gentleman from Idaho. Mr. Simpson? I said 
either of the gentlemen.
    Mr. Simpson. I will go, then. I appreciate it. I appreciate 
the bill that you have introduced, Mr. Peterson, and I support 
it.
    Elizabeth, I would like to ask you a couple of questions. I 
know the Administration is concerned about the acquisition of 
private land, and becoming more and more Federal land. But in 
many of the western states, as testimony has indicated--67 
percent of Elmore County. At Challis County it is 96 percent 
Federal land. That means 4 percent of the property is paying 
the taxes there.
    And many of us, with the Carroll legislation and things 
that have many good provisions in them that we would like to 
see enacted, our biggest problem is the funding of the Federal 
Land and Water Conservation Fund that takes $450 million 
annually, and the acquisition of land without really any 
provision that it does not impact these counties in an adverse 
way.
    Mr. Peterson here has introduced a bill, I think, that 
tries to address that. You mentioned that we should look at 
this. In your testimony you said we should look at this to make 
sure that it would not unnecessarily limit the ability of the 
Forest Service to acquire lands to further purposes of land 
management mandates imposed under statutes such as the Federal 
Land Policy and Management Act, the Multiple-Use Sustained 
Yield Act, the Forest and Rangeland Renewable Resources 
Planning Act, and the National Forest Management Act.
    Those are all acts dealing with Federal land, not with 
private land. And what we are talking about here is the 
acquisition of private land. How does the Forest Service 
acquire private land to further the purposes of a statute meant 
to deal with Federal lands?
    Ms. Estill. A number of ways. But typically, we are talking 
about lands that are within the designated boundary of a 
national forest. So that it is within the boundary. It has been 
studied. And in some way--either through an earmark by 
Congress, through LWCF--it has been viewed to be in the 
public's interest to acquire that.
    It might be for example an inholding in a wilderness area 
that we have all agreed we need to try to acquire to further 
the purposes of the public lands. So that would be an example 
of acquiring private land in the public interest.
    Mr. Simpson. If you already own half of the land in the 
county, or two-thirds of the land in the county, and you 
decided to acquire an inholding, there are no other lands 
within that county which we can give up for private use?
    Ms. Estill. Well, there certainly could be. And our typical 
process, actually, we don't have an authority to dispose of 
lands, just a general authority to dispose of lands. We can do 
it through an exchange, which requires evaluation and 
environmental review and so forth. But our disposal authority 
is really quite limited.
    Mr. Simpson. Is that the only way you can dispose of it, is 
through exchange?
    Ms. Estill. We can dispose of it. No, there are about five 
different ways that we can dispose if it. The Schools Act, that 
we talked about previously, is one. The Sisk Act. Each of those 
has a limitation on the numbers of acres and the purposes for 
which we could dispose of it.
    So, yes, there are some authorities. We don't have a 
general authority. It is usually a very time consuming process. 
And what is problematic about going through a very lengthy 
process--finding the appropriate vehicle, if there is one, and 
then going through a lengthy process--is the opportunity to 
acquire that. For example, inholding is open for a very short 
window, and then it is closed. So the opportunity sometimes 
dissipates.
    Mr. Simpson. Could you tell me what the Administration has 
requested in PILT funding this year?
    Ms. Estill. I am sorry, I don't have that information. We 
can certainly get it for you.
    Mr. Simpson. OK. I appreciate that. Would the Forest 
Service, just out of curiosity, consider waiving its sovereign 
immunity for new land purchases and paying property taxes at 
the level compared to those paid by private properties?
    Ms. Estill. I would not be ready to answer that question 
for the Administration today. I can get back with you on that.
    Mr. Simpson. OK. I appreciate that. And I am just talking 
about the addition of the new acquisitions of land.
    Ms. Estill. Yes. Yes.
    Mr. Simpson. And you know that there are a lot of private 
organizations out there that work on that assumption, such as 
the Nature Conservancy, that acquires lands but doesn't take it 
off of the tax rolls.
    Ms. Estill. Right.
    Mr. Simpson. My time is just about up, but I want to thank 
you, Commissioner McCurry, for coming. It is good to see you 
again.
    This is a county in my district, and he is doing a great 
job making sure that we try and protect the property owners and 
the budgets of those counties that are severely impacted by 
Federal lands. Thank you, Mr. Chairman.
    Mr. McInnis. Mr. Inslee?
    Mr. Inslee. Thank you, Mr. Chair.
    I just would like to ask Ms. Estill, how would this impact 
any land exchange programs that the Service had? What would be 
the impact on that program?
    Ms. Estill. It would be a pretty dominant impact on those 
land exchange programs; in that we would certainly have to go 
back through consideration. I mean, currently it is policy, 
even if it is not always done, that the forest supervisors and 
the rangers and the staff at each local level consult with 
county officials. And certainly, under the Sisk Act we are 
required to have state approval for any land transactions 
within a state, according to state law.
    This could be pretty burdensome on the Federal process, 
particularly if we go through hearings, for example. I have 
heard not only from the Forest Service that it could be quite a 
difficult situation, but from some private land owners, that 
they really don't want their affairs subjected to a hearing and 
their ability to sell the land scrutinized and decided by the 
county government.
    Mr. Inslee. Thank you. Mr. McCurry, I appreciate your 
making the trip here. And I am empathetic with your county's 
financial situation of limited tax base. And you talked about 
the services you have to provide associated with some of these 
Federal lands, and I can understand that.
    Do you think the best approach to this is a financial one, 
to help your county deal with it; for instance, by increasing 
PILT payments to help you financially weather this storm? Or is 
it better just to have an absolute limitation of Federal 
ownership in a particular county, as this bill would propose?
    And I guess what I am really asking is, do you have a 
philosophical objection to the Federal Government owning over a 
certain percentage in any county? Or is it more just that this 
imposes a financial burden on you, and if we fix this financial 
burden, there shouldn't be any sort of ideological objection to 
having a certain percentage in Federal ownership?
    Mr. McCurry. Mr. Chairman, Congressman, I would probably 
answer that two ways. The financial impact, in my current 
elected capacity, is my primary concern; although as a private 
citizen, philosophically, I believe that the Federal Government 
should be careful about owning too much land.
    As Congressman Simpson mentioned, we have a couple of 
counties in our state that are over 95 percent Federally owned, 
and that creates some additional problems. So as a citizen, I 
philosophically am opposed to higher land ownership by the 
Federal Government. But my primary concern here is the 
financial impact on rural counties in Idaho.
    Mr. Inslee. So let me ask you, if you had a choice between 
increasing PILT payments to counties such as yours, or giving a 
tax cut to the Enron Corporation of $254 million, what do you 
think would be a more important policy in the United States?
    Mr. McCurry. I think the Federal Government should pay its 
fair share of taxes, Congressman.
    Mr. Inslee. Well, let me just come back to my question. If 
you had a choice to urge Congress to increase PILT payments or, 
instead of doing that, to give Enron a $254 million tax cut, 
what do you think would be more important, in your view?
    Mr. McCurry. I believe that fully funding PILT is more 
important to the local counties.
    Mr. Inslee. I agree with you. We, you and I, are in the 
minority on this issue. I will just give you that bad news in 
that regard.
    But it is a serious issue. Because I think you sit, like a 
lot of counties do, with extreme financial problems associated 
with this. And I agree with you, that we ought to increase 
these payments. I tend to think that is a better approach than 
an absolute limitation, some numerical limitation, associated 
with Federal ownership, at least in my view. And I thank you, 
and thank Mr. Chair.
    Mr. Simpson. Mr. Chairman, could I just ask, I am curious: 
Is life truly a zero-sum game?
    Mr. McInnis. Now, now, now, now, now. We are going to move 
on.
    Mr. Inslee. No, but the Federal budget is.
    Mr. McInnis. Let's see, Mr. Otter?
    Mr. Otter. Well, thank you very much, Mr. Chairman. You 
know, I think more important than the numbers is good faith. 
And I think in Mr. Peterson's opening testimony--and this is my 
first year here--the fact that those who would now decry where 
money is being spent have not lived up to their obligation 
throughout the history.
    Otherwise, we would not be over $660 million behind in PILT 
payments. We would not be over $48 million behind in Idaho in 
IDEA education payments. We wouldn't be near the financial 
problems that we have, had we kept promise, let alone worrying 
about the figures. And I think if you make a promise, you ought 
to worry more about keeping that promise than playing some 
zero-sum game all the time.
    One of the problems that we have, Ms. Estill, is not just 
of ownership; although I will admit, in my 19-county district 
in Idaho I have double-digit unemployment in six of those 
counties, and all six of those counties are the ones where 
there is a predominant ownership by the Federal Government, and 
therefore control by the Federal Government, and therefore 
confusion on land management.
    One of the other major problems that we have is that we 
find that much Federal ownership is disuse of land. In other 
words, we have probably the predominant source of invasive 
species. We have noxious weeds. And one of the things that 
obviously concerns us is that most of the seed genesis for 
noxious weeds that end up on state land or private land in 
Idaho comes from the Federal land.
    And it always concerns me that if I, as a private property 
owner, have a patch of noxious weeds on my property, the local 
government can come in and, if I refuse to eradicate that 
problem, the local government can come in and eradicate it for 
me, and then put a lien against my land that says, ``If you 
ever want to transfer ownership of this land, you are going to 
have to satisfy this financial obligation to the rest of the 
community.''
    And so it is most appropriate, I think, that this is called 
the ``Good Neighbor Act''; if we could go much further in 
making the Federal ownership be a good neighbor in terms of 
what is happening on the land, as well as the ownership of the 
land, and their inability or their lack of desire to be good 
neighbors by paying their fair share of the taxes. And so it is 
the very management problems that you were talking about that 
this would cause. That is what is causing us some problems.
    And I want to know what is present in the Administration's 
philosophy to be a good neighbor, with or without this bill? 
What about eradicating the noxious weeds? What about managing 
the lands in such a way so that we are a good neighbor? Is 
there any general purpose in the Administration, or do we just 
want to buy more land because we have got an inholder and we 
think we need to own it?
    Ms. Estill. No, I think, clearly, we do want to be good 
stewards of the land, and we do want to be good neighbors. We 
are as concerned about things like noxious weeds spreading 
outside, or southern pine beetle in the southern states 
spreading outside from a national forest. And I know you have 
heard from us many times that we feel somewhat hamstrung or 
gridlocked, in analysis paralysis sometimes, to be able to get 
out and do active management in a rapid kind of way. That is a 
problem.
    Then, just simply a scarcity of resources to put on the 
ground, which any agency will probably argue is a 
consideration. But we would like very much to be better 
neighbors than we are. And I think every one of our district 
rangers who live in those local communities certainly is 
sensitive to the needs of local people, and wants to do the 
best that they can.
    Mr. Otter. Well, my time is about up, but I just want to 
tell you how disappointed I was in the Administration during 
the discussions on CARA and their mute response to the problems 
that we have; where we admitted, and in this Committee, we have 
got $1,200,000,000 in backlog maintenance on noxious and 
invasive weeds on Federal ground through all of the agencies.
    We have got over $10 billion in maintenance that is due in 
order to bring Federal facilities and Federal lands up to the 
standards that the Federal Government imposes on everybody else 
in Clean Water, Clean Air, the ADA, all of the other Federal 
mandates, that the Federal Government then absolves itself from 
any--It is such a good idea for everybody else, except a 
Federal agency.
    And I just want to tell you how frustrating it is to have 
the Administration now come in here and tell us that, even 
though while we were going through all the debate on CARA and 
$1 billion--$450,000,000 for the Federal Government, 
$450,000,000 for the states--to go out and buy up more land; 
and then resist, or at least stand silent, while we ask, ``Why 
don't you just bring your facilities and bring your lands that 
you now own up to the standards that you are requiring of 
states and that you are requiring of the private land owner?''
    And I guess that is the end of my statement, because my 
light is red. And Craig, welcome to Washington, D.C., I think.
    Mr. McInnis. Thank you, Congressman.
    Mr. Otter. Thank you, Mr. Chairman.
    Mr. McInnis. Mr. Udall? Any other questions on this side? 
Mr. Udall?
    Mr. Udall of Colorado. Thank you, Mr. Chairman.
    Just to review a little bit of the background with you, and 
then ask a couple of questions, the total acreage under the 
management of the BLM, the Forest Service, Fish and Wildlife, 
and National Park Service, has actually decreased from about 
700 million acres in 1964, to 60,200,000 acres. So we are 
talking about 80 million acres less of Federal land from '64 to 
'94, in 30 years. And that is in the GAO report.
    Of the four agencies that acquired land in that 30-year 
period, about half of that was done by either gift or donation, 
or by exchange. So on the acquisition, it is a little bit over 
10 million acres. So almost half of that. So we are only 
talking about five million that was actually done, where we 
have gone out and there was an acquisition.
    I am wondering how many circumstances are in your states, 
circumstances or cases that you can point to, where a land 
acquisition went forward without support of the local 
congressional delegation and against the wishes of local county 
officials? Were there a lot of those circumstances? I mean, is 
that what we are trying to solve with this bill?
    You know, the local congressional delegations running over 
the county? Or what is the big problem here that we are trying 
to address?
    Ms. Estill. Well, as I think most of you are aware, most of 
the acquisitions come through LWCF, and they usually are 
congressionally earmarked. So there has been ample public 
discussion before the appropriations arrive at all levels, 
typically.
    Mr. Udall of Colorado. And in the new CARA bill, doesn't 
it, have many requirements, in terms of local notification and 
involving local people? And there are many protections that we 
put in there to make sure that there weren't problems at the 
local level. You are aware of those, I guess?
    Ms. Estill. There certainly are measures. In fact, in 
virtually all of the bills, there are measures that require 
public notification. Again, how much notification and how 
quickly it goes out, and the individual land owner who might 
wish to dispose of his property to the Federal Government, 
becomes a sensitive issue. But typically, all of the 
acquisitions have been subjected to public scrutiny before they 
go through.
    Mr. Udall of Colorado. And what you said earlier is that 
land exchanges would be severely hampered by this.
    Ms. Estill. Well, yes. It would certainly put more process 
and requirement on us. And again, as I mentioned, there is some 
unease that I am hearing from in the field about how the 
private land owners and those who acquire land on behalf of the 
Federal Government would feel about having to go before a 
public hearing. So it cuts both ways, it seems.
    Mr. Udall of Colorado. Craig, do you have any egregious 
examples of where the congressional delegation has run over 
local folks in acquisitions in your state?
    Mr. McCurry. Mr. Chairman, Congressman, I don't have any 
examples where our congressional delegation has run over people 
in our state. We're pretty pleased with our congressional 
delegation from Idaho.
    Mr. Udall of Colorado. So what are we trying to fix here? 
What is the problem?
    Mr. McCurry. Well, there are instances in my county and in 
neighboring counties in the past few years where some of the 
government officials in charge of these Federally owned lands, 
or acquiring these Federally owned lands, seem to push the 
limits of public notification as far as they can push them. In 
other words, the publication may or may not be in a very 
conspicuous spot; or the time lines are pushed to the extreme. 
And we have a lot of problems with, at the last moment, 
citizens being asked for comment without time to prepare, when 
we have a government-funded agency that has people that are 
schooled in these things, having ample time to prepare.
    We also object to the fact that local government officials, 
as I mentioned in my testimony, are treated as stakeholders, 
and not as a government agency. We testify along with everybody 
else as a stakeholder, and not as a government agency that 
should be treated as a partner in this; when we are the elected 
officials closest to the people in those areas. And that is one 
of the things that we object to.
    Mr. Udall of Colorado. Do you have a specific case you are 
talking about?
    Mr. McCurry. I can get that information, Congressman. I 
don't have it right now off the top of my head.
    Mr. Udall of Colorado. You don't?
    Mr. McCurry. But I recall the instances.
    Mr. Udall of Colorado. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Peterson. [Presiding.] The Chairman temporarily left 
and gave me the gavel. I think it was my turn anyway, so I will 
proceed.
    I would like to comment that there is a huge difference 
between public notification--and you talked about sometimes 
that being kind of at the very end of the process--and 
approval. I mean, those are two different things. We think, 
when your predominant ownership is the Federal Government 
through these four agencies, local governments when it is two-
thirds ought to have approval; not notification, approval.
    Because you are a huge stakeholder. You are the big dog. 
You are the big property owner. You control the area. And to 
expand even further, local folks ought to have approval. I will 
be on the side of the local folks any time.
    In speaking about the decrease that a previous speaker 
spoke about in Federal land, here is the explanation. Between 
'64 and '94, the Federal estate decreased. This decrease, 
however, was only in lands managed by the Bureau of Land 
Management, with a substantial amount of lands being 
transferred to Alaska and Native Alaskans. It still went into 
public ownership. They pay no taxes.
    The amount of lands managed by the Forest Service, Fish and 
Wildlife Service, and National Park Service, all increased 
between '64 and '94. And in fact, the amount of land managed by 
the National Park Service increased 179 percent, and the amount 
of land managed by the Fish and Wildlife Service increased by 
285 percent over the 30-year period. This increase in land 
managed by the Federal agencies has led to conflicts in certain 
areas between the Federal land managers and local governments.
    Our bill doesn't stop the Federal Government from buying 
anything. It just says, ``If it is 50 percent, you have this 
process; if it is excess of 67 percent, you have this 
process.'' And it is about local Governor approval, or local 
county commissioner approval.
    Now, personally, I have been involved at all levels of 
government: I have served in borough government; I have served 
in the state legislature; I have served in the state senate; 
and I have served in the Federal Government. And I want to tell 
you, the power belongs at the local level. You don't want a 
Federal Government that has dominant control or power over you. 
I have worked in all of them.
    And then the Ranking Member talked about comparing PILT 
payments to some tax cuts for somebody. But let me tell you 
what PILT payments compete with. I am on the Appropriations 
Interior Subcommittee. They get an amount allocation. And you 
know what prevents PILT payments from going up every year? Land 
acquisition funds.
    Every year, we allocate from a half a billion to a billion 
dollars in land acquisition funds. Most of the Interior budget 
is set. It is agencies; it is things that are pretty constant. 
There is a little bit of money at the top--they call that the 
cream--that can get moved around. That is land acquisition. It 
wins every time.
    We will buy land before we will pay our taxes, because we 
have been able to get away with it, as a government. We have 
never paid our taxes. Thirty-three cents an acre, which was 
last year's payment--it has only been 24 cents an acre before 
that--is a travesty to the local folks.
    In Pennsylvania, the State owns a lot of land; more land 
than most states. One of the last bills I got passed was, we 
now pay $1.20, flat. Part of it goes to the school district; 
part of it goes to the county; and part of it goes to local 
governments. It is allocated. We pay $1.20 for every acre.
    Now, the game commission was very unhappy about that, but 
they were buying a lot of land. It is fair that they pay their 
fair share of taxes. And if the Federal Government paid its 
fair share of taxes, we wouldn't be holding this hearing today.
    Because what we are doing is, these agencies are growing, 
and the amount of land outside the tax base is growing. States 
are buying; the Federal Government is buying. The only reason 
our total aggregate went down is, we transferred it to states 
and to tribes.
    So I think that this whole issue today is about to make 
sensitivity. I think it should be less than 50 percent where 
some rules come in, but I tried to be fair. It only affects 177 
counties currently, out of 3,066. We are saying, ``Be sensitive 
where you own a lot of land.'' If a Federal agency can't be 
sensitive in 177 counties, then I think they need to have a 
brain transplant.
    Mr. McInnis. Any other questions? Mr. Holt?
    Mr. Holt. I thank the Chair.
    First, before I begin, I would ask the Chair if we might 
have permission to insert in the record at this point a letter 
and a statement; a letter dated April 8th, to the Chairman and 
the Ranking Member, from Mr. David Alberswerth, Director of the 
Bureau of Land Management Program at the Wilderness Society in 
Washington, D.C.; and also, a statement dated April 10th from 
the Western Land Group in Denver, Colorado.
    Mr. McInnis. Without objection, so ordered.
    [The information submitted for the record by Mr. Holt 
follows:]
[GRAPHIC] [TIFF OMITTED] 78631.020

[GRAPHIC] [TIFF OMITTED] 78631.021

                 Statement of Western Land Group, Inc.

                       in opposition to H.R. 3962

                      The Good Neighbor Act of 2002

                            submitted to the

U.S. House of Representatives Subcommittee on Forests and Forest Health

                             April 10, 2002

    Dear Mr. Chairman and Members of the Subcommittee,
    Thank you for inviting us to comment on H.R. 3962. Western Land 
Group, Inc. is a small public lands consulting firm based in Denver, 
Colorado, which specializes in assisting public and private clients who 
wish to sell or exchange lands to the United States. Since our 
establishment in 1981, we have successfully assisted a variety of 
clients in completing more than 100 land exchanges and Land and Water 
Conservation Fund sales to the Forest Service, BLM and Park Service, 
including assisting on numerous legislated land exchanges.
    While we appreciate the intention of H.R. 3962 that land exchanges 
and sales be closely coordinated with units of local and state 
government, we believe that close coordination and consultation already 
occurs, and that many of the provisions of H.R. 3962 unnecessarily 
duplicate or complicate existing law and regulation.
    As the Subcommittee is well aware, the ownership of property comes 
with certain so-called ``property rights''. One of those property 
rights is the right to sell or exchange lands to the U.S. Government on 
a willing-seller, willing-buyer basis. Many of our clients own lands 
within the National Forest, BLM or National Park Systems, and because 
of deeply felt feelings for the land, wish to convey it to one of the 
Federal agencies, so that it can forever be preserved for open space 
and public enjoyment. Therefore, sale in the private sector is not an 
option they wish to pursue.
    H.R. 3962 would complicate private landowners efforts to convey 
private land to the United States by adding new steps to the already 
time consuming and complex sale or exchange process. For example, all 
Congressional (legislated) land exchanges and sales involve hearings, 
markups and the opportunity for floor debate in either the authorizing 
or appropriating Committee processes, on in floor consideration in both 
the House and Senate. In short, they receive careful Congressional 
scrutiny. The process is a deliberate one, and provides ample 
opportunity for input from the Senators or Congressmen representing the 
areas concerned. Additional notification and review is unnecessary.
    Further, Forest Service and BLM exchange regulations (36 CFR 254.8 
for the Forest Service, and 43 CFR 2201.2 for the BLM) already require 
notification to States, Counties, Congressional delegations and the 
general public at the beginning of the land exchange process, so that 
there is no need to legislate on the matter. In addition, land 
exchanges that are processed by the Federal agencies in-house, must 
undergo a full NEPA analysis, which must be accompanied by public 
notification, meetings and/or public hearings. Thus, as we have 
indicated, the land exchange or sale process is already very complex, 
and additional steps and protections are not needed.
    We also strongly object to giving Governors or Counties effective 
veto power over Federal sales or land exchanges. Governor or County 
approval is not required for private sector land sales or exchanges, 
and should not be required for Federal transactions. The consultation 
and coordination with State and local government required by existing 
law and policy is extensive, and is sufficient.
    A few additional points:
    <bullet> The 97% exchange value criteria of subparagraph 2(a)(1)(B) 
of H.R. 3962 conflicts with the existing FLPMA requirement (43 U.S.C. 
1716(b)) that lands to be exchanged must be within 25% of each other in 
value. Finding exchange lands that are as close in value as 3% of each 
other would be extremely difficult in most cases, and we believe the 
existing FLPMA requirement of 25% is well advised and realistic. The 
97% requirement would significantly reduce the level of flexibility 
necessary to complete a land exchange and would reduce the ability of 
the agencies to use this important tool to accomplish land tenure 
objectives.
    <bullet> Requiring that exchange lands be mostly in the same county 
is not realistic in some cases. Many land exchanges involve lands in 
more than one county because the lands desired for acquisition by the 
Forest Service and/or BLM may not be in the exact same county as the 
lands being disposed, or because county jurisdictional lines do not 
always follow lines that make sense from a watershed, topographic or 
ecological standpoint. So, the best exchange may involve giving up 
lands that are non-essential for public use in one county in order to 
acquire publicly beneficial lands in another. Again, this and other 
provisions of H.R. 3962 would unwisely limit the use of land exchanges 
to serve the public interest.
    <bullet> We believe the House and Senate Appropriations Committees 
do an excellent job of soliciting input on land sales from the various 
state Congressional delegations. In fact, in our experience, it is 
virtually unheard of for the Appropriations Committees to proceed with 
an LWCF project without approval from the Senators or Congressmen 
involved. Therefore, we see no need to for additional approval 
procedures.
    In summary, Mr. Chairman, for the reasons outlined above, we 
believe that H.R. 3962 is unnecessary and unwise legislation, and urge 
that it not be enacted. Thank you for the opportunity to comment.
                                 ______
                                 
    Mr. McInnis. Also, if the member would provide members 
copies, and would you give me a copy of that?
    Mr. Holt. We will be happy to do that.
    Mr. McInnis. Thank you. You may proceed.
    Mr. Holt. Thank you, Mr. Chairman.
    I would say, first of all, that I had never heard a real 
answer to Mr. Udall's question of: Well, what is the problem 
here? Can anybody show us some specific examples where this 
bill would have prevented some egregious behavior? And so I 
would ask the sponsor of this legislation to compile for us a 
list of cases where the Congressional action to acquire land 
has run roughshod over local concerns.
    Now, I do understand the burden that some local 
jurisdictions feel. And I think many of us would say the PILT 
payments probably are insufficient. I am not sure that this is 
the time to go into a discourse on the problems that we face in 
Congress in so many areas, and the disconnect between the 
budget resolution process and the authorization process and the 
appropriations process. I wish we could get the three of those 
in much better coordination in a lot of areas, including the 
Individuals With Disabilities Education Act, special education, 
as well as PILT.
    But it seems to me that this bill is really misdirected to 
solving that problem. Perhaps this is motivated by some 
philosophical concern that the Federal Government simply 
shouldn't own so much land and we shouldn't have national parks 
and national forests. And if so, we should debate it on those 
grounds; but not on the basis of PILT payments.
    But I do have a specific question for the Forest Service. 
Your testimony, Ms. Estill, says that H.R. 3962 could limit the 
ability of the Forest Service to acquire lands to meet the 
purposes of several statutes. Could you explain more 
specifically how this would limit the ability of the Forest 
Service to acquire lands?
    Let me, though, before I ask you to do that, point out that 
I don't want us to get sidetracked on a myth here. And the myth 
is that the Federal Government is acquiring more and more and 
more land here. I mean, data from the BLM shows that there not 
only has been no significant increase in the total amount of 
land owned by the Federal Government; but in fact, this total 
has decreased in recent years.
    You know, Federal land holdings between '79 and '89 
decreased by more than 75 million acres. So I don't want us to 
get too far on this, away on a myth here that the Federal 
Government is just getting more and more and more. But in those 
places where the Federal Government does seek to acquire lands, 
how would this bill limit the ability of the Forest Service to 
do so?
    Ms. Estill. Well, typically, our acquisitions, our list of 
acquisitions, the things that we desire to acquire, come 
through our land management and planning process, which you 
know is a very open process with a great deal of public input. 
And then, typically, what we like to do is strike while the 
iron is hot, either through a land trust or the Nature 
Conservancy or someone else acquiring on our behalf, until we 
get an appropriation; or just through a trade. And many of our 
acquisitions also are done through land trades.
    And what this would do, in fact, would require, in those 
counties that have 66 percent or greater, that we would go 
through a public hearing process at the county level and 
actually acquire county approval before we could move forward. 
So it would be a process that would add more process; and in 
fact, in some cases we would lose the opportunity to acquire 
the land, and it just appears once.
    Mr. Holt. Well, since my time has expired here, perhaps the 
Forest Service, for the record, would like to extend the 
testimony a little bit more about how this would limit the 
ability to meet the purposes of the Federal Land Policy and 
Management Act, and the Multiple-Use Sustained Yield Act, and 
the Forest Management Act, and so forth.
    Ms. Estill. Certainly.
    Mr. Peterson. Would the gentleman yield?
    Mr. Holt. My time has expired. I would be happy to yield if 
I had it. Thank you, Mr. Chairman.
    Mr. McInnis. We need to move on, because we have another 
bill, and I need to complete this before noon, and we are not 
making very good progress. But I do want to point out, Mr. 
Holt, you made a comment about a decrease in Federal land. 
There was an earlier paragraph. I just want to make sure of the 
clarification. The only significant decrease of Federal land 
holdings was the Bureau of Land Management, and that was 
primarily transfers to the Native Americans.
    And I just want to make sure we are all clear on this. 
Because if you take a look at the acquisitions by Federal 
agencies, they have gone up substantially. With that one 
exception or trade or giving land to the Native Americans, I 
guess the testimony would kind of give the implication that the 
Government is giving away all this land. We are not. We are 
acquiring land by the thousands of acres. So I just want that 
clarified.
    Mr. Udall of Colorado. Will the gentleman yield?
    Mr. McInnis. Sure, I'd be happy to. I think we should 
clarify this.
    Mr. Udall of Colorado. The land that goes to the Native 
corporations is going out into the private sector. So I mean, I 
don't know to argue that land that is going to Alaskan natives 
is somehow now public land.
    And the second point is, Mr. Chairman, that it seems to me 
that then the argument you are making is: The increases 
happened in parks, so we have more parks, which are very much 
supported by the American people. So if the purpose of this 
bill is saying, ``We don't want any more parks,'' then let's 
announce it, that that is the purpose of the bill.
    Mr. McInnis. Mr. Udall, I don't think that is the purpose 
of the bill.
    Mr. Udall of Colorado. Well, I don't know where the bill is 
directed.
    Mr. McInnis. I control the time, Mr. Udall.
    Mr. Udall of Colorado. Well, OK.
    Mr. McInnis. I control the time. I just want this very 
clarified, because I don't want it misleading.
    Mr. Udall of Colorado. Maybe you need to come to the State 
of Colorado, and I'll show you about Federal land acquisition. 
Maybe you need to go to some of the other mountain states, 
perhaps even New Mexico, and find out about land acquisition. 
You are talking about one specific example, and that deals with 
the Alaskan Native Tribes.
    Mr. McInnis. I want to make sure that we have it very 
clear, especially to our listening audience here, that there 
has not been a significant decrease--in fact, no decrease at 
all--with most of those Federal agencies, with that one 
specific example with Alaska and the natives.
    Now, in regards to the bill, I was addressing the specific 
point. The merits of the bill can stand on their own.
    We will go ahead and proceed. Any further witnesses? 
Everybody on this side? Well, we need to move on. I am giving 
everybody an opportunity.
    Mr. Otter. Mr. Chairman, I neglected in my initial round to 
ask that a letter that I have received from other county 
commissioners and other counties in Idaho be submitted for the 
record, on the loss of private ground.
    Mr. McInnis. If there is no objection, so ordered.
    [The letter submitted for the record by Mr. Otter follows:]
    [GRAPHIC] [TIFF OMITTED] 78631.022
    
    [GRAPHIC] [TIFF OMITTED] 78631.023
    
    Mr. Peterson. Can I make just one quick statement?
    Mr. McInnis. You can close it up.
    Mr. Peterson. OK. There is an implication here that we are 
against land acquisitions. We are saying in 171 counties.
    If the gentleman from Colorado would listen--from New 
Mexico would listen? Yes. OK.
    But we are talking about 171 counties, out of 3,066. What 
we are saying is, if you are going to acquire land, and you 
don't want to get approval locally, you have got almost 3,000 
counties you have to do it. Do some of it in New Jersey, where 
you may need more public land.
    We have states in the West that are totally hamstrung with 
public ownership. The have no economies left, because of public 
policies by agencies, who are people who are not elected. And 
we are saying, when you own half of it, then you go through a 
process to buy more. There is no process asked in all of those 
other counties.
    Mr. Holt. If the gentleman would yield?
    Mr. Peterson. I would be glad to.
    Mr. Holt. You know, in fact, there is a process. Whether 
the Federal Government owns 50 percent or less, or more, there 
is a process to go through. And I am not sure why this 
arbitrary cutoff at 50 percent.
    And indeed, I would like to take you up on this. New Jersey 
would jump at the chance to have more LWCF money for land 
acquisition.
    Mr. Peterson. Raise your own money. You know, take it all.
    [Laughter.]
    Mr. Peterson. But I mean, I want to tell you something. If 
you think Federal agencies are sensitive to locals, think 
again. Do you think the Fish and Wildlife Service is sensitive 
to local governments? Come on! They are not sensitive. They buy 
land--
    Mr. Holt. That is one of your--
    Mr. Peterson. No, let me finish. They buy land without us 
even approving it. The Fish and Wildlife Service is the only 
agency in the world that gets no legislative approval to buy 
land. That is an outrage. That ought to be stopped. No agency 
should be able to buy land without legislative approval. And 
the Fish and Wildlife Service does it every year.
    They are getting us into hock all over this country, where 
we are going to have to maintain land, and we never put the 
money in. Every one of these agencies has a huge maintenance 
backlog, because we take those few dollars at the top of the 
Interior budget to buy more land, instead of maintaining what 
we have. And you have almost 2,080-some counties that there's 
no additional requirements.
    All we are saying, we just want you to have a process to 
increase the sensitivity to the impact at the local level. 
That's all this is about. It only affects less than 6 percent 
of the counties; 94 percent, nothing changes. It is not 
catastrophic, in any way, positive or negative. It is just 
asking the Federal Government to be sensitive.
    Mr. McInnis. Thank you, Mr. Peterson. I think the members 
have been allowed to vent here, and it is good. But we need to 
move on, as a courtesy to Mr. Acevedo-Vila.
    Mr. Holt. Will the gentleman yield?
    Mr. McInnis. Not on this bill. We need to move on, so that 
our fellow member, as a courtesy, has time to present his bill.
    Mr. McInnis. I appreciate your patience. I guess we have 
one witness, is that right, on the next panel for your bill?
    Mr. Acevedo-Vila. Yes.
    Mr. McInnis. And that is Kristen McDonald, Associate 
Director, Wild and Scenic Rivers, with the American Rivers. Mr. 
Acevedo-Vila, you may proceed.

   STATEMENT OF HON. ANIBAL ACEVEDO-VILA, REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PUERTO RICO

    Mr. Acevedo-Vila. Thank you, Mr. Chairman. I thank you for 
this opportunity.
    Many of you are familiar with the Caribbean National 
Forest, commonly known in Puerto Rico as ``El Yunque.'' If you 
are not familiar, I encourage you to visit El Yunque on your 
next visit to Puerto Rico. I am sure you will agree that El 
Yunque, the only tropical rain forest within the U.S. National 
Forest System, is a natural wonder and a unique resource that 
we must preserve and protect forever. El Yunque is the only 
managed rain forest on Earth. And with this distinction comes 
heightened responsibility, in my opinion, to fully protect this 
important resource.
    The enactment of this bill, along with the wilderness 
legislation, H.R. 3955, approved by the Full Committee last 
month, will help ensure that the natural integrity of El Yunque 
is preserved not only for Puerto Ricans, but also for the one 
million annual visitors to the CNF for generations to come.
    H.R. 3954 will preserve and protect three rivers that flow 
within the boundaries of El Yunque. It is the intent of the 
Wild and Scenic Rivers Act of 1968 to preserve rivers and 
sections thereof to protect the water quality of such rivers, 
and to fulfill other vital national conservation purposes. It 
is within this intent that I have introduced this bill. And I 
am fully committed to the preservation of these beautiful 
rivers.
    While there are additional rivers within El Yunque that 
have received wild and scenic designation recommendations, the 
areas of these rivers are covered under H.R. 3955, which was 
approved by the Full Committee last month, through wilderness 
designation, or are within the existing ``Bano de Oro'' natural 
area. Therefore, I have followed recommendations to focus on 
rivers running outside of the proposed El Toro Wilderness Area, 
and outside of existing natural areas.
    The three rivers that will be designated under this Act 
were all recommended for inclusion under the National Wild and 
Scenic Rivers System by the revised land and resources 
management plan for the CNF, approved April 17, 1997. This 
management plan was the basis for the introduction of this 
bill, and I ask for your support in its consideration.
    The three rivers include the Rio Mamayes, the Rio Icacos, 
and the Rio de la Mina. All three have outstanding 
characteristics, and make up an integral part of the experience 
when visiting the forest.
    The Rio Mamayes offers outstanding scenic, biological, and 
recreational values to visitors. It flows over large boulders 
and numerous waterfalls, forming enjoyable pools. Trails run 
along gorges that descend through the forest. The water quality 
along the upper segment is optimum, with no interference from 
human encroachment.
    The Rio Mamayes provides important habitat for the Puerto 
Rican Parrot and Puerto Rican Boa, both endangered species. 
Furthermore, the endangered Broad-Winged and Sharp-Skinned 
Hawks and the threatened Peregrine Falcon are also known to use 
this area. The Mamayes system enjoys the highest natural 
aquatic diversity and species richness of any forest watershed. 
The Mamayes remains the only uninterrupted, free-flowing river 
in Puerto Rico.
    The Rio de la Mina is judged as eligible based on its 
outstanding scenic, recreational, biological, and historic 
values. Like the Mamayes, the Rio de la Mina descends over 
boulders and waterfalls, forming rapids and pools. Trails 
parallel the river and provide for numerous recreation areas.
    The most spectacular waterfalls in the forest exist along 
the Rio de la Mina. These falls, known as ``La Mina Falls,'' 
play an important role in promoting Puerto Rico as a prime 
vacation destination. The water quality is good within the 
proposed designation area. The Rio de la Mina also provides 
habitat for endangered animal and plant species.
    The Rio Icacos is judged as eligible based on its 
outstanding scenic, historic value, and ecological values. The 
Rio Icacos has some of the most varied terrain of El Yunque's 
rivers. Near the headwaters, the gradient is less steep than 
further downstream, where it also descends over boulders and 
waterfalls.
    In the upper section the stream bed exhibits a unique sandy 
bed due to its origin in the upper, flatter section. The palm 
forest is very striking along the bank; more so than in any 
other areas of the forest. Water quality is high within the 
proposed designation area. Endangered animal and plant species 
are present within the proposed area.
    I look forward to working with my colleagues on these wild 
and scenic river designations in El Yunque. Please let me know 
when and if you will visit the Caribbean National Forest. 
Puerto Ricans take great pride in El Yunque, and I assure you 
that it is worth the trip to visit. And I think you all have 
copies of some of the pictures of the scenic beauty of the 
three rivers. Thank you.
    [The prepared statement of Mr. Acevedo-Vila follows:]

Statement of The Honorable Anibal Acevedo-Vila, a Delegate in Congress 
                     from Puerto Rico, on H.R. 3954

    I want to thank Chairman McInnis, Ranking Member Inslee and all of 
my colleagues on the Subcommittee for this opportunity to testify in 
support of the Caribbean National Forest Wild and Scenic Rivers Act of 
2002.
    Many of you are familiar with the Caribbean National Forest, 
commonly known in Puerto Rico as ``El Yunque.'' Should you not yet be 
familiar, I encourage you to visit El Yunque upon your next visit to 
the Puerto Rico. I am sure you will agree that El Yunque, the only 
tropical rain forest within the U.S. National Forest System, is a 
natural wonder and unique resource that we must preserve and protect 
forever. El Yunque is the only managed rain forest on earth, and with 
this distinction comes heightened responsibility in my opinion, to 
fully protect this important resource. The enactment of this bill, 
along with the wilderness legislation (H.R. 3955) approved by the 
Committee last month, will help ensure that the natural integrity of El 
Yunque is preserved for the 1 million annual visitors to the CNF for 
generations to come.
    H.R. 3954 would preserve and protect three rivers that flow within 
the boundaries of El Yunque. It is the intent of the Wild and Scenic 
Rivers Act of 1968 to preserve rivers and sections thereof to protect 
the water quality of such rivers and to fulfill other vital national 
conservation purposes. It is within this intent that I have introduced 
this bill, and I am fully committed to the preservation of these 
beautiful rivers. While there are additional rivers within El Yunque 
that have received wild and scenic designation recommendations, the 
areas of these rivers are covered under H.R. 3955 through wilderness 
designation, or are within the existing Bano de Oro Natural Area. 
Therefore, I have followed recommendations to focus on rivers running 
outside of the proposed El Toro Wilderness Area and outside of existing 
natural areas.
    The three rivers that would be designated under this act were all 
recommended for inclusion under the National Wild and Scenic Rivers 
System by the revised land and resource management plan for the CNF, 
approved April 17, 1997. This management plan was the basis for the 
introduction of this bill, and I ask for your support during its 
consideration.
    The three rivers include the Rio Mameyes, the Rio Icacos, and the 
Rio de La Mina. All three have outstanding characteristics and make up 
an integral part of the experience when visiting the forest.
    The Rio Mameyes offers outstanding scenic, biological and 
recreational values to visitors. It flows over large boulders and 
numerous waterfalls, forming enjoyable pools. Trails run along gorges 
that descend through the forest. The water quality along the upper 
segment is optimum, with no interference from human encroachment.
    The Rio Mameyes provides important habitat for the Puerto Rican 
Parrot and Puerto Rican Boa, both endangered species. Furthermore, the 
endangered Broad-winged and Sharp-shinned Hawks, and the threatened 
Peregrine Falcon, are also known to use this area. The Mameyes system 
enjoys the highest natural aquatic diversity and species richness of 
any forest watershed. The Mameyes remains the only uninterrupted, free 
flowing river in Puerto Rico.
    The Rio de la Mina is judged as eligible based on its outstanding 
scenic, recreation, biological and historic values. Like the Mameyes, 
the Rio de La Mina descends over boulders and waterfalls, forming 
rapids and pools. Trails parallel the river and provide for numerous 
recreation areas. The most spectacular waterfalls in the forest exist 
along the Rio de la Mina. These falls, known as La Mina Falls, play an 
important role in promoting Puerto Rico as a prime vacation 
destination. The water quality is good within the proposed designation 
area. The Rio de la Mina also provides habitat for endangered animal 
and plant species.
    The Rio Icacos is judged as eligible based on its outstanding 
scenic, historic, cultural and ecological values. The Rio Icacos has 
some of the most varied terrain of any of El Yunque's rivers. Near the 
headwaters, the gradient is less steep than further downstream where it 
also descends over boulders and waterfalls. In the upper section, the 
streambed exhibits a unique sandy bed due to its origin in the upper, 
flatter section. The palm forest is very striking along the bank, more 
so than in any other area of the forest. Water quality is high within 
the proposed designation area. Endangered animal and plant species are 
present within the proposed area.
    I look forward to working with my colleagues on these wild and 
scenic river designations in El Yunque. Please let me know when and if 
you will visit the Caribbean National Forest. Puerto Ricans take great 
pride in El Yunque, and I assure you it is worth the trip to visit.
                                 ______
                                 
    Mr. McInnis. Congressman, in the picture, is that you in 
the swimming suit?
    Mr. Acevedo-Vila. Excuse me?
    Mr. McInnis. Is that you in the swimming suit in the 
picture you gave us?
    [Laughter.]
    Mr. Acevedo-Vila. Let me check. [Laughs.] No. Although I 
have swum there.
    Mr. McInnis. OK. We will proceed to the witness. Ms. 
McDonald, we appreciate your coming today. You have 5 minutes. 
Thank you for your testimony.

  STATEMENT OF KRISTEN McDONALD, ASSOCIATE DIRECTOR, WILD AND 
          SCENIC RIVERS PROGRAM, AMERICAN RIVERS, INC.

    Ms. McDonald. Mr. Chairman, members of the Subcommittee, 
thank you for the opportunity to testify today on the Caribbean 
National Forest Wild and Scenic Rivers Act. With your 
permission, I will summarize my comments now, and ask that my 
entire testimony be submitted to the record.
    My name is Kristen McDonald. I am the Associate Director of 
the Wild and Scenic Rivers Program for American Rivers, a 
national, non-profit river conservation organization. Since our 
founding in 1973, American Rivers has worked with state and 
local groups and local, state, and Federal agencies to protect 
rivers using the Wild and Scenic Rivers Act.
    I would like to thank Commissioner Acevedo-Vila for 
introducing this landmark bill to protect three outstanding 
rivers in the Caribbean National Forest as wild and scenic 
rivers. These rivers would not only be the first wild and 
scenic rivers designated in Puerto Rico; they would be the 
first tropical rivers in the system as a whole.
    As you know, one of the goals of Congress in passing the 
Wild and Scenic Rivers Act in 1968 was to create a system of 
rivers that were representative of the Nation's diversity of 
rivers. By designating these rivers, the 107th Congress would 
make a significant mark in the history of the wild and scenic 
rivers system.
    The Rio Mamayes is the only free-flowing river that remains 
in Puerto Rico, and is known for its beautiful waterfall. It 
supports the highest aquatic biodiversity of any river in the 
forest, with all five species of native fish, all nine species 
of the unusual freshwater shrimp, and the only freshwater crab.
    The Rio Icacos is remarkable for its unusual geology and 
endangered and sensitive tropical plant species. The upper part 
of the river has sandy-bottomed pools and is sinuous and lower 
in gradient than the other rivers in the forest. It is known to 
provide habitat for the sensitive Burrow Coqui, a rare tree 
frog that only occurs in the high cloud forest of Puerto Rico.
    The Rio de la Mina was likely named after a mid-1800's 
Spanish gold mining complex, the remains of which are within 
the river's scenic corridor. The Rio de la Mina is a reminder 
that these rivers are part of one of the oldest protected areas 
in the Western Hemisphere. They were set aside in 1876 for 
special protection, and there are still 1,000-year-old trees 
along the banks of these rivers.
    Unfortunately, other things in the forest have changed over 
time. The Puerto Rican Parrot, which used to flourish 
throughout the island, is now in danger of becoming extinct. 
And the some 40 birds left in the wild all live within the 
Caribbean National Forest. Designating these rivers would help 
protect the last areas where the Puerto Rican Parrot has a 
chance of recovery.
    These rivers would make excellent additions to the national 
wild and scenic rivers system. They are free-flowing; possess 
outstanding scenic, historic, cultural, geologic, wildlife, and 
research values; and there is substantial local support in 
Puerto Rico for their designation.
    We do have two concerns with the bill as currently drafted, 
but the Commissioner has drafted an amendment to the bill that 
will alleviate our concerns. The amendment will correct Section 
2(c) dealing with the establishment of boundaries, to be 
consistent with the Wild and Scenic Rivers Act.
    Second, the amendment will correct Section 2(d), ``Special 
Management Considerations,'' to ensure that any scientific 
research facilities do not harm the free flow or the values for 
which the rivers have been designated.
    In conclusion, I would like to point out that the Caribbean 
National Forest is the source of drinking water for 20 percent 
of Puerto Rico's population. By designating the headwater areas 
of these rivers, Congress will ensure that existing water uses 
can be maintained and that future water use is balanced with 
the need to protect valuable tropical habitat, scientific 
research sites, and recreational resources.
    Thank you. I appreciate the opportunity to testify today.
    [The prepared statement of Ms. McDonald follows:]

Statement of Kristen McDonald, Wild and Scenic Rivers Program Associate 
             Director, American Rivers, Inc., on H.R. 3954

    Mr. Chairman, members of the Subcommittee, thank you for the 
opportunity to testify on H.R. 3954, the Caribbean National Forest Wild 
and Scenic Rivers Act. My name is Kristen McDonald, and I am the 
Associate Director of the Wild and Scenic Rivers Program for American 
Rivers. American Rivers is a national river conservation organization 
with over 30,000 members. Since its founding in 1973, American Rivers 
has worked with our grassroots partners to protect rivers under the 
Wild and Scenic Rivers Act and has actively assisted Federal agencies, 
states and local groups with river conservation efforts.
    I would like to thank Resident Commissioner An!bal Acevedo-Vila for 
introducing H.R. 3954, which would designate three outstanding rivers 
in the Caribbean National Forest in Puerto Rico as components of the 
National Wild and Scenic Rivers System. These rivers would not only be 
the first wild and scenic rivers designated in Puerto Rico, they would 
be the first tropical rivers in the System as a whole. One of the goals 
of Congress in passing the Wild and Scenic Rivers Act in 1968 was to 
create a system of rivers that were representative of the nation's 
diversity of rivers, and by designating the Rio Mameyes, Rio Icacas, 
and Rio de la Mina, this Congress would make a significant mark in the 
history of the Wild and Scenic Rivers System.
    The Rio Mameyes is the only free-flowing river that remains in 
Puerto Rico. The portion found eligible and suitable for designation is 
entirely within the National Forest boundary, from its headwaters in 
the Bano de Oro Research National Area to the Forest Boundary. This 
remote area is known for its beautiful waterfalls, and hiking trails 
and swimming holes make it a popular recreational destination. The Rio 
Mameyes has unique stands of buttress-rooted trees that are uncommon 
not only in Puerto Rico but throughout the Caribbean. In addition, the 
river provides important habitat for the endangered Puerto Rican 
Parrot, Puerto Rican Boa, and Broad-winged and Sharp-shinned Hawks.
    The Rio Icacas is remarkable for its variety of terrain, unusual 
geology, and numerous endangered and sensitive tropical plant species. 
The upper part of the river has sandy-bottomed pools and is sinuous and 
lower in gradient than the other rivers in the Forest. It is known to 
provide habitat for the sensitive Burrow coqu!, a rare tree frog that 
only occurs in the cloudforest area of the National Forest.
    The picnic areas in the headwaters of the Rio de la Mina are the 
most popular tourist destinations within the Caribbean National Forest; 
in addition La Mina Falls is a spectacular scenic attraction and a 
popular hiking destination. The river was likely named after a mid-
1800s Spanish gold mining complex, the remains of which are within the 
scenic corridor; the old mine shaft and some of the homestead sites can 
still be enjoyed by hikers along the La Mina Trail. The Puerto Rican 
parrot, Puerto Rican Boa, and two endangered plant species are known to 
occur along the Rio de la Mina.
    All three of these rivers are important to the survival of the 
endangered Puerto Rican Parrot. The Fish and Wildlife Service estimates 
there are only about 100 known Puerto Rican Parrots left today, and the 
40 of these that live in the wild all live in the Caribbean National 
Forest. It is the last protected area where these birds have a chance 
at recovery. Protecting these three river corridors would help ensure 
desired tree habitat for the parrot is left intact.
    The three rivers are eligible and suitable for designation, and the 
Forest Service has demonstrated there is substantial local support for 
their designation. American Rivers supports passing H.R. 3954 but we do 
have three concerns with the bill as currently drafted and we are 
working with the Regional Commissioner's staff to address these issues.
    First, section 2(c) dealing with establishment of boundaries should 
be corrected to be consistent with the Wild and Scenic Rivers Act, 
which states that boundaries must be established within one year of 
designation, not ``as soon as practicable,'' as currently required in 
the bill. This is an important correction, as boundary establishment 
will determine the area that the Forest Service must protect and 
enhance as a wild and scenic river, which must average , mile from the 
ordinary high water mark on each side of the river.
    Our second concern involves section 2(d), ``Special Management 
Considerations.'' While American Rivers agrees that the research 
activities within the Caribbean National Forest are vital to the 
American people, installation and maintenance of such facilities, if 
they occur within designated wild and scenic rivers, must be consistent 
with the Wild and Scenic Rivers Act. In particular, we would suggest 
amending the bill to require the Forest Service to ensure that any such 
facilities do not harm the free flow or values for which the rivers 
have been designated.
    Finally, the bill should include an authorization of appropriations 
as necessary for the Forest Service to protect and enhance the Rio 
Mameyes, Rio de la Mina, and Rio Icacas Wild and Scenic Rivers.
    In conclusion I would like to point out that the Caribbean National 
Forest is the source of drinking water for 20% of Puerto Rico's 
population. There are already a dozen dams in the National Forest that 
divert water for public use. By designating the headwater areas of the 
Rio Mameyes and Rio Icacas as wild and scenic rivers, Congress will 
ensure that these existing water uses can be maintained and that future 
pressure to build more dams in the area is balanced with the need to 
protect valuable tropical habitat, valuable scientific research sites, 
and recreational resources.
    I appreciate the opportunity to submit testimony to the 
Subcommittee today.
                                 ______
                                 
    Mr. McInnis. Thank you. I will begin the questions. First 
of all, since I am not familiar, Congressman, with the 
boundaries, just the headwaters are protected under the wild 
and scenic designation? So that your diversion points for the 
drinking water will not be impacted in a negative fashion by 
this bill? Is that correct?
    Mr. Acevedo-Vila. That is right. And I can assure the 
Committee that in the process of drafting the bill, we 
discussed it with everybody down there in Puerto Rico, just to 
be sure that water supply and all of the needs for the 
population were protected. Yes.
    Mr. McInnis. And that would also apply in the case of low 
water flow?
    Mr. Acevedo-Vila. Yes.
    Mr. McInnis. For example, right now in the West we are 
experiencing a huge drought.
    Mr. Acevedo-Vila. Yes.
    Mr. McInnis. Fine. And Ms. Estill, how does the wild and 
scenic river designation modify a river's uses? Can you help me 
on that a little, or do you have that background? I know you 
have got some background in Puerto Rico, so you could even 
apply it to this, as well; but just generally.
    Ms. Estill. Well, it protects the outstanding values of the 
river. It would prohibit any additional structures going in the 
river; would not in any way limit recreation use, unless it 
started contaminating the streams.
    Mr. McInnis. Would it allow repair of existing structures?
    Ms. Estill. Yes, it would. We see this as a real ``win-
win'' all the way around: protecting the water quality, the 
scenic and the biotic resources of all three of these 
corridors.
    Mr. McInnis. All right, thank you.
    Mr. Inslee?
    Mr. Inslee. I have no questions, I think, for the sponsor 
for this great work. Thank you.
    Mr. McInnis. Any other questions of the panel? Mr. Kildee?
    Mr. Kildee. Just a statement. I had the opportunity of 
visiting and enjoying these rivers. And I commend my colleague, 
Mr. Acevedo-Vila, for the introduction of this bill. I look 
forward to its passage.
    Mr. Acevedo-Vila. It is time to go back.
    Mr. Kildee. It is time.
    [Laughter.]
    Mr. McInnis. Mr. Acevedo-Vila?
    Mr. Acevedo-Vila. Yes, I just wanted to thank both of them 
for the testimony and their support. And thanks to the 
Committee.
    Mr. McInnis. Thank you. And I thank the panel. Thank you 
for your time. I appreciate your being here. Mr. Acevedo-Vila, 
thank you for the bill.
    The Committee stands adjourned.
    [Whereupon, at 11:30 a.m., the Subcommittee was adjourned.]

    [A letter submitted for the record by Rebecca Watson, 
Assistant Secretary for Land and Minerals Management, U.S. 
Department of the Interior, on H.R. 3962 follows:]
[GRAPHIC] [TIFF OMITTED] 78631.024

[GRAPHIC] [TIFF OMITTED] 78631.025

                                   - 

</pre></body></html>
